       Office Of inspectOr General
       U.S. Department of tranSportation




semiannual repOrt tO cOnGress
 April 1, 2010 – September 30, 2010
                                                            Table of Contents
From the Inspector General  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . iii
Audits and Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
           Aviation and Special Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
           In Focus: Uncovering Aviation Safety Risks  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 11
           Highway and Transit Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 13
           In Focus: Ensuring Safety of the Nation’s Bridges  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 25
           Rail and Maritime Programs and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27
           In Focus: The Federal Railroad Administration’s Challenges  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 31
           Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33
           Aquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37
           Departmentwide Issues  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41

Other Accomplishments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43
Work Planned and in Progress  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 45
           Aviation and Special Programs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                             45
           Highway and Transit Programs  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                             50
           Rail and Maritime Programs and Economic Analysis  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                                            52
           Financial and Information Technology  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                       55
           Acquisition and Procurement  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                           59

Statistical Performance Data  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 61
           Summary of Performance  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 61
           Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 63
           Completed OIG Reports  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 63
           OIG Reports with Recommendations that Questioned Costs .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 64
           OIG Reports Recommending Changes for Safety, Economy, or Efficiency  .  .  .  .  .  .  . 65
           Management Decisions Regarding OIG Recommendations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 66
           OIG Published Reports .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 67
           OIG Congressional Testimonies  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 76
           Unresolved Recommendations Over 6 Months Old  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 77
           Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 79
           Statistical Outcomes  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 79
           Profile of All Pending Investigations as of September 30, 2010  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 81

Peer Review  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 83
Mission and Organization  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 85
Contacts  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 88
                         From the Inspector General

I am pleased to present the Department of Transportation (DOT), Office of Inspector
General Semiannual Report to Congress for the second half of fiscal year 2010. Our
audit and investigative work supports the Department’s strategic goals of safety,
reduced congestion, global connectivity, environmental stewardship, security, and
organizational excellence. Over the past 6 months, we issued 78 reports with a total
of 234 recommendations, including financial recommendations totaling over $633
million. Our investigative work resulted in 53 indictments, 41 convictions, and a total
of nearly $52 million in fines, restitutions, and recoveries.
During this period, we testified at four congressional hearings before four different
House and Senate committees, demonstrating the range and complexity of our
work. In the last 2 weeks of April, we testified on our concerns regarding the Federal
Aviation Administration’s (FAA) ability to achieve its long-term goals for the Next
Generation Air Transportation System (NextGen); the Pipeline and Hazardous Materials
Safety Administration’s efforts to address safety risks; and the Federal Railroad
Administration’s (FRA) challenges in meeting its expanded role, especially as it relates
to implementing a high-speed rail program. We also testified in July on the Federal
Highway Administration’s progress in addressing our Nation’s deficient bridges and
the additional actions needed to ensure states comply with Federal bridge standards.
Our aviation work continued to focus on significant safety concerns. In addition
to reporting and testifying on FAA’s efforts to enhance air traffic capacity through
NextGen, we reported on weaknesses in the agency’s placement of newly hired and
trained air traffic controllers and its initiatives to reduce runway incursions. We also
reported on contractor configuration and procedural errors that led to the November
2009 outage in FAA’s Telecommunications Infrastructure, which grounded hundreds
of flights nationwide. Our investigations uncovered the use of fraudulent inspection
stickers; the manufacture, distribution, and sale of substandard aircraft parts; and the
use of forged airmen medical certificates—underscoring the need for increased rigor
in FAA’s oversight of the airline industry.
Our highway and transit audits identified safety risks in two of the Nation’s largest and
most costly surface transportation infrastructure programs—Massachusetts’ Central
Artery/Tunnel project and New Jersey’s Access to the Region’s Core project—and
the need for improved oversight to mitigate these risks. Moreover, our investigations
revealed widespread abuse of commercial vehicle and driver regulations established
by the Federal Motor Carrier Safety Administration, including operating vehicles
without valid commercial licenses or inspection stickers, driving in excess of maximum
hours allowed, and illegally disposing hazardous materials. Our investigations also
uncovered multiple fraud schemes to bilk the Federal and state governments and
individuals out of billions of dollars. As a result of our work, numerous cases against
companies and individuals have been prosecuted, and more than $38 million in fines
has been assessed.




                           Semiannual Report to Congress      iii
Our rail work focused on the on-time performance of Amtrak’s intercity passenger
trains and right-of-way access to freight railroad’s tracks—two key areas that
directly impact Amtrak’s bottom line and efforts to successfully implement high-
speed rail service. Given the challenges FRA faces in implementing the high-speed
rail program, we expect our work in this area to increase in the future.
Our audits and investigations of the Department’s information technology systems
indicate that vulnerabilities remain. While FAA has made significant progress in
implementing our recommendations for its air traffic control systems, more work
needs to be done to protect these systems from cyber attacks. Unauthorized
access to personally identifiable information on airmen also continues to be a
concern—particularly given that we identified cases in which airmen who had been
certified as fit to fly were receiving benefits for disabilities that indicated otherwise.
The Department also needs to take significant action to strengthen its acquisition
function. We have found deficiencies in key areas, including the need to establish
sound acquisition policies and processes and appropriate organizational alignment
and leadership. The risks these deficiencies create are considerable—as evidenced
by Operating Administrations’ failure to effectively design, administer, and justify the
use of cost-plus-award-fee contracts.
Finally, we continued to pursue opportunities to ensure accountability, efficiency,
and transparency over DOT’s $48 billion in American Recovery and Reinvestment
Act (ARRA) funds, and remain committed to promptly notifying DOT and Congress
of actions needed to prevent fraud, waste, and abuse in ARRA programs. As of the
end of September, we have 24 planned and ongoing ARRA audits, and 50 open
ARRA investigations involving allegations of disadvantaged business enterprise
violations; false claims, statements, or certifications; conflicts of interest; anti-trust
violations; and bid rigging, collusion, embezzlement, and prevailing wage violations.
Thirty-five of our 50 ARRA investigations have been accepted for prosecution by the
Department of Justice.
Our work reflects a strong commitment to providing in-depth analyses of important
transportation issues to serve and inform the public and congressional lawmakers.
I commend and thank our hard-working staff for their outstanding efforts and
dedication to our critical mission. I would also like to commend and thank Secretary
LaHood for his leadership and tireless efforts in these challenging times. I look
forward to continuing to work closely with the Secretary, his team, and modal
administrators to provide Americans with a 21st century transportation system that
meets the national objectives of general welfare, economic growth and stability, and
security.



Calvin L. Scovel III


                              From the Inspector General    iv
                                              Aviation and Special Programs

Audits                                                 not sufficiently consider candidates’ screening
                                                       test results or FAA Academy performance when
April 1, 2010                                          selecting and placing them. As a result, some of
                                                       the busiest air traffic control facilities have re-
Review of Screening, Placement, and                    ceived candidates who may not have the knowl-
Initial Training of Newly Hired Air                    edge, skills, and abilities necessary to become
                                                       certified at those locations. Facility managers
Traffic Controllers                                    we spoke with noted that some candidates who
Requested by the Chairman of the House                 passed Academy training were unprepared to
Transportation and Infrastructure Subcommittee         begin facility training.
on Aviation
                                                       We recommended that FAA evaluate and redesign
Over the next decade, the Federal Aviation             its current screening test to consider candidates’
Administration (FAA) plans to hire and train           skill sets, assign candidates to facilities based
nearly 15,000 new air traffic controllers to re-       on their Academy performances, and implement
place retiring controllers. To ensure a smooth         the recommendations to improve Academy train-
transition, FAA will need sound procedures for         ing contained in FAA’s 2007 Controller Training
screening, placing, and training newly hired air       and Development Group report. While FAA only
traffic controllers—many of whom have no prior         partially concurred with our recommendations, it
air traffic control experience. However, FAA does      proposed acceptable corrective actions.


                                   Semiannual Report to Congress      1
April 21, 2010                                            April 22, 2010
Challenges in Meeting FAA’s Long-                         Actions Taken and Needed To Improve
Term Goals for the Next Generation                        Management and Oversight of
Air Transportation System                                 PHMSA’s Hazardous Materials
FAA’s Next Generation Air Transportation System
                                                          Special Permits and Approvals Program
(NextGen) is expected to greatly enhance air              Hearing before the House Committee            on
traffic capacity and reduce operating costs.              Transportation and Infrastructure
NextGen is an ambitious, high-risk project that
involves multibillion-dollar investments from             The Pipeline and Hazardous Materials Safety
both the Government and the airline industry.             Administration (PHMSA) regulates up to 1 million
The Inspector General’s testimony focused on              daily movements of hazardous materials, many
the significant challenges FAA must overcome              of which occur under special permits and ap-
to achieve NextGen’s long-term goals. Central             provals that allow for relief from the Hazardous
to this effort is the successful implementation of        Materials Regulations under certain conditions.
modernization projects that will provide platforms        The Inspector General’s testimony highlighted
for NextGen capabilities that can enhance ca-             our work on the management and oversight
pacity. However, key multibillion-dollar programs         of PHMSA’s Special Permits and Approvals
have experienced problems, and FAA has yet to             Program and PHMSA’s response to our recom-
fully determine NextGen requirements. These               mendations. The Inspector General noted that
include the $2.1 billion En Route Automation              while PHMSA developed commendable action
Modernization program. Delays in this and other           plans to address the shortcomings in its autho-
projects will have a cascading effect on NextGen          rization and oversight of special permits and
plans now and well into the future. One critical          approvals, work remains to execute the plans as
step for avoiding risks with NextGen’s cost,              intended. Specifically, PHMSA personnel do not
schedule, and capabilities is addressing gaps             consistently follow new procedures for granting
in partner agencies’ research and development             special permits and approvals, or adequately
efforts and long-term budgets and plans. The              oversee explosive classification approvals. As
Inspector General noted several actions FAA               PHMSA continues to address these areas, it
can take now to strengthen the multi-agency               must proactively identify safety risks, work with
approach, better leverage Federal research proj-          partner safety agencies to resolve safety and co-
ects, and prevent duplicative implementation              ordination matters, and set oversight priorities.
efforts.




                                     Aviation and Special Programs    2
June 16, 2010                                             outcome-focused. We recommended a number
                                                          of actions to help FAA reduce implementation
Timely Actions Needed To Advance the
                                                          risks, strengthen the multi-agency approach,
Next Generation Air Transportation                        and improve coordination with the private sector.
System                                                    FAA concurred with all of our recommendations
Requested by the Chairmen and Ranking Members             and proposed appropriate action plans.
of the House Committee on Transportation and              June 17, 2010
Infrastructure and its Subcommittee on Aviation
                                                          Letter to Chairmen Oberstar and
The National Airspace System handles almost               Costello Regarding the 2009 FAA Tele-
50,000 flights per day and more than 700 million          communications Infrastructure Outage
passengers per year. FAA expects NextGen to               Requested by the Chairmen of the House
handle up to three times more air traffic than the        Committee on Transportation and Infrastructure
current ground-based air traffic control system           and its Subcommittee on Aviation
and reduce operating costs. Ongoing cost and
schedule risks and operational and management             An outage in FAA’s Telecommunications
issues prompted us to identify NextGen as one of          Infrastructure (FTI) on November 19, 2009,
the Department’s top management challenges.               blocked approximately 75 percent of the FTI
                                                          network traffic and delayed service restoration
While FAA is making progress in addressing                for 5 hours, grounding hundreds of flights and
these challenges, several critical actions are still      thousands of travelers nationwide. We found that
needed for successful implementation. Among               network configuration and procedural errors by
them—and perhaps most important in the near               the contractor caused the FTI outage. While FAA
term—is setting realistic mid-term expectations           and the contractor have taken corrective actions
and requirements for key programs and as-                 to prevent another critical outage, they acknowl-
sessing associated risks. In addition, Congress           edge that the risk of outages remains as new
mandated a multi-agency approach to develop               services are added to FTI’s fiber optic network.
NextGen, but most of FAA’s partner agencies               Furthermore, we found that FAA’s oversight of
have not adjusted their budgets accordingly.              the contractor could have been more effective
FAA also has not fully leveraged partner agen-            and proactive. Moreover, FAA’s internal reports
cies’ research and development. While FAA has             show that FAA and the contractor still need to
begun working with the private sector to develop          fully identify FTI vulnerabilities to ensure network
NextGen and shape related policies, it must bet-          reliability. FAA is shifting more acquisitions and
ter define the role of the NextGen Institute—an           services to the private sector to reduce costs,
FAA resource for engaging private sector exper-           and we identified a number of best practices
tise, tools, and facilities for NextGen activities—       FAA should consider for FTI and other privately
and ensure demonstration projects are more                owned and operated systems.



                                      Semiannual Report to Congress    3
Because FAA concurred with the findings and               On June 11, 2010, FAA officials informed us that
recommendations of an independent review                  they had cancelled the planned transfer of staff
panel convened by the FAA Administrator to in-            and service from Boise to Salt Lake City. Given
vestigate the November 2009 outage, we did not            FAA’s decision, we made no recommendations.
make recommendations in our report. However,              However, we identified lessons learned to help
we will continue to monitor FTI and report on             improve the soundness and overall transparency
FAA’s progress in addressing these issues as              of future business cases.
necessary.
                                                          July 16, 2010
June 30, 2010
                                                          Letter to Senator LeMieux Regarding
Letter to the Idaho Congressional                         Allegations Concerning Venice, Florida,
Delegation Regarding the Review                           Municipal Airport
of FAA’s Business Case for Moving                         Requested by Senator George LeMieux
Terminal Radar Approach Control
                                                          Senator George LeMieux asked us to review a
Services from Boise, Idaho, to Salt Lake
                                                          constituent’s allegations about FAA oversight
City, Utah                                                of the Venice, Florida, Municipal Airport. The
Requested by the Idaho Congressional Delegation           constituent’s six allegations specifically focused
                                                          on FAA’s Orlando Airport District Office’s (ADO)
The       Idaho    Congressional    Delegation—           compliance with Agency policies in making
Senators Michael Crapo and James Risch,                   decisions on airport operations and Venice
and Representatives Mike Simpson and Walt                 Airport’s revenue use. We did not substantiate
Minnick—raised concerns over the lack of trans-           the constituent’s allegations that the Orlando
parency regarding estimated costs for transfer-           ADO did not comply with FAA policies. However,
ring terminal radar approach control (TRACON)             we found sufficient support to initiate a more
services from Boise to Salt Lake City. Our review         detailed review of Venice Airport’s revenue use.
found that while FAA had a process for evaluat-
ing the estimated costs and savings associated
with the move, changes in key assumptions
underlying the projected $24 million in savings
were made and not reflected in the business
case for the move. Further, FAA’s basis for facil-
ity lifecycle costs may have been unrealistic, and
its cost estimates for keeping TRACON in Boise
were questionable.




                                     Aviation and Special Programs    4
July 21, 2010                                            August 4, 2010
Review of FAA’s Call to Action Plan for                  Letter to Representative Petri
Runway Safety                                            Regarding Costs Associated with FAA’s
Requested by the Chairman and Ranking                    Air Traffic Managers Conference
Member of the Senate Commerce, Science, and              Requested by the Ranking Member of the House
Transportation Committee                                 Transportation and Infrastructure Subcommittee
                                                         on Aviation
Each year, hundreds of near collisions occur
on the Nation’s airport runways. In 2007, FAA,           FAA held its December 2009 Air Traffic
airline, and airport officials created the Call to       Organization Managers Conference in Atlanta,
Action Plan to reduce the risk of runway incur-          Georgia, to provide managers in-depth training
sions. While the 2007 plan clearly had an impact         on FAA’s new 3-year labor agreement with the
on the reduction in serious incidents, other fac-        National Air Traffic Controllers Association. The
tors may have contributed to the decrease—in-            agreement is the product of years of negotiation
cluding a drop in airport operations on runways          between FAA and the union, and includes signifi-
and taxiways since 2007 and unreliable incident          cant new pay and benefit provisions.
data. We also found that several major airports
made key safety improvements before the plan
                                                         We found that conference costs—approximately
was established.
                                                         $5.1 million—were in line with FAA’s estimates,
                                                         and that officials responsible for planning the
To date, FAA and industry stakeholders have              event followed Agency guidance and best
implemented several of the plan’s short-term             practices and selected the “best value” when
initiatives, such as upgrading airport surface           determining the host city and venue. While there
markings. However, if FAA is to achieve its goal         were some opportunities to reduce the overall
of reducing runway incursions by 10 percent              cost of the event, FAA did have legitimate busi-
by fiscal year 2013, it must also set and meet           ness reasons for not pursuing them. Based on
milestones for the plan’s mid- and long-term ini-        our findings, we did not make recommendations
tiatives. In the past, we found that FAA’s efforts       to FAA.
diminished as it initially met its overall goal for
reducing runway incursions, only to later see a
rebound in the number of incidents. We made
six recommendations to ensure FAA effectively
implements its Call to Action Plan initiatives. FAA
fully concurred with four of the six recommen-
dations and proposed acceptable alternative
courses of action for the remaining two.




                                     Semiannual Report to Congress    5
Investigations                                           June 17 and July 7, 2010
                                                         South Florida Aviation Repair Station
April 1, 2010                                            Owner and Parts Brokers Jailed for
Investigation Substantiated                              Aircraft Parts Fraud
Whistleblower’s Concerns about
                                                         In March 2010, Jorge Cascante—owner and
FAA’s Oversight of American Airlines’                    operator of CAS Honeycomb, an FAA Repair
Maintenance Programs                                     Station located in Miami, Florida—pled guilty to
                                                         charges of aircraft parts fraud for manufacturing
After discovering American Airlines did not com-         aircraft panel assemblies identified with Boeing
ply with an airworthiness directive, an Aviation         parts numbers without the authority to apply the
Safety Inspector assigned to the American                Boeing numbers. On June 17, Cascante was
Certificate Management Office alleged that high-         sentenced in U.S. District Court, Fort Lauderdale,
level officials in FAA’s Flight Standards Service        Florida, to 30 months imprisonment, followed by
intervened and permitted American to continue            2 years supervised release.
operating noncompliant aircraft. The directive
required mechanical system inspections, and              In April 2010, Mariella Bianchi and Juan Beltran,
the allegations involved American Airlines’ rud-         owner and employee of The Airborne Group, an
der and wiring systems.                                  airplane parts broker company, pled guilty to a
                                                         charge of aircraft parts fraud in connection with
While our investigation found American Airlines          the sale of aircraft parts bearing Boeing part
noncompliant, we concluded that FAA exercised            numbers that were not manufactured by Boeing.
its discretion in allowing American to continue          On July 7, 2010, Bianchi and Beltran were sen-
operating 124 aircraft while FAA sought an ad-           tenced in U.S. District Court, Miami, Florida, to
ditional review of the problem. FAA ordered              30 months incarceration and 3 years supervised
an inspection team to cease work and vacate              release, and ordered to pay $1.9 million for sell-
American’s maintenance facility in Tulsa,                ing the fraudulent aircraft parts. They were also
Oklahoma, while conducting an inspection of              ordered to forfeit $130,706 in proceeds derived
the rudders of Boeing 757 aircraft and the wir-          from the scheme.
ing of MD-80 aircraft. While these actions were
not improper, they fostered the perception               These sentencings were the result of Operation
among inspectors that FAA was wrongly assist-            Wingspan, an ongoing investigation into the
ing American to avoid a service disruption. On           fraudulent manufacture, distribution, and sale
August 26, 2010, based on American Airline’s             of military and civilian aircraft parts by brokers,
noncompliance, FAA announced a $24.2 million             manufacturers, and repair station owners
civil penalty against the carrier.                       throughout the United States who lack FAA or




                                    Aviation and Special Programs    6
Department of Defense approval. These aircraft            In 2006, FAA revoked Negron’s First Class
parts include skins, wings, and control surfaces          Medical Certification for drug and alcohol
for various aircraft, including the military version      problems. In an attempt to regain his medical
of the Boeing 707/320 commercial airframe,                certification, Negron was examined by an FAA
which is used for the Air Force’s E-3 Sentry,             Medical Examiner in the Atlantic City, New
Airborne Warning and Control System, and KC-              Jersey, area but was not medically cleared. Our
135 Airborne Refueling aircraft.                          investigation determined that in October 2007,
                                                          Negron provided an air carrier a fraudulent FAA
Manufacturers conspired with various brokers              First Class Medical Certification with no restric-
or authorized Defense contractors to sell the             tions, bearing Negron’s forged signature of the
substandard aircraft parts to the Air Force. In           FAA Medical Examiner. Negron’s sentencing is
cases where the customer required supporting              pending.
FAA authorization documents, brokers further
conspired with FAA repair stations to falsify FAA         July 28, 2010
forms, giving the illusion that the manufactured          FAA Certified Mechanic Indicted on
parts had been approved by FAA and were suit-
able for installation on an aircraft.
                                                          Aircraft Parts Fraud
                                                          Joseph J. Fisk, an FAA Mechanic Certificate
Thus far Operation Wingspan has resulted in               Holder, was indicted in the Federal District Court
the execution of 12 search warrants; indictment           of Missouri on one count of fraud involving
of 6 individuals, all of whom have pled guilty;           aircraft parts in interstate commerce. The indict-
and sentencings culminating in about 14 years             ment charges that between March 2009 and
imprisonment; and $3.4 million in restitution and         September 2009, Fisk allegedly printed and sold
forfeitures.                                              for $100 each labels certifying that a satisfac-
                                                          tory 100-hour or annual inspection of an aircraft
July 6, 2010                                              or engine was performed by an FAA inspection
New Jersey Pilot Pleads Guilty to False                   authorization certificate holder. Such labels were
                                                          placed in aircraft maintenance logbooks in viola-
Statements                                                tion of Federal law.
In U.S. District Court, Newark, New Jersey,
Ronald Negron pled guilty to knowingly and will-          Our investigation revealed that neither Fisk nor
fully making false statements to an FAA Medical           anyone to whom he sold the fraudulent labels
Examiner, indicating that he was sober and not            was authorized to perform an annual or 100-hour
consuming alcohol when in fact he did consume             inspection as represented by the labels he cre-
alcohol and was being counseled for alcohol and           ated. Fisk confessed to creating the labels and
substance abuse.                                          forging the signature of an FAA inspection certifi-
                                                          cate holder, who certified annual inspections on



                                      Semiannual Report to Congress    7
as many as 12 aircraft. FAA issued an emergency            August 26 and 27, 2010
order of revocation for Fisk’s FAA Mechanic
                                                           Investigations of Airfare Price Fixing
Certificate.
                                                           Nets Charges against Two Executives
This case was conducted jointly with the Federal           and $38 Million Fine of Airline Carrier
Bureau of Investigation (FBI) and with FAA’s as-
sistance. Note: Indictments, informations, and             On August 26, 2010, Joo Ahn Kang and Chung Sik
criminal complaints are only accusations by the            Kwak—former vice presidents of the Americas
Government. All defendants are presumed in-                of Asiana, and Korean citizens and residents—
nocent unless and until proven guilty.                     were indicted by a Brooklyn, New York, Federal
                                                           grand jury for conspiring to suppress or elimi-
August 9, 2010                                             nate competition by fixing fares for passenger
                                                           transportation services between January 2000
Investigation Substantiated                                and February 2006. Kang and Kwak, along with
Whistleblower’s Safety Concerns at                         co-conspirators, communicated and agreed on
Detroit Metropolitan Airport                               the price of one or more components of fares
                                                           charged to passengers who purchased econo-
OIG investigators substantiated allegations that           my class tickets for flights between the United
FAA managers at Detroit Metropolitan Airport               States and Korea.
compromised air safety by directing air traffic
controllers to manage air traffic in a manner that         On August 27, 2010, in United States District
violated local FAA orders. Specifically, we con-           Court, Washington, D.C., Northwest Airlines LLC,
firmed that on July 21, 2008, a front-line manager         through Northwest Airlines Cargo, now defunct,
improperly directed controllers to authorize the           pled guilty to conspiring to fix the cargo rates
departure of three Boeing 747 jets in a manner             charged to customers in the United States and
contrary to local policy. During the investigation,        elsewhere for international air cargo shipments
six additional violations of local policy were iden-       from at least July 2004 until at least February
tified. None of the incidents, however, violated           2006. The company carried out the conspiracy
national standards regarding minimum separa-               by agreeing to certain aspects of cargo rates
tion between aircraft.                                     for shipments between the United States and
                                                           Japan. Northwest Airlines was ordered to pay a
We also substantiated concerns that the airport’s          $38 million criminal fine.
wind measuring equipment was unreliable. The
investigation confirmed that the two wind detec-           This joint investigation is being coordinated by
tion devices available to air traffic controllers in       the Department of Justice’s Antitrust Division,
the control tower had provided inconsistent wind           with involvement of the FBI and the U.S. Postal
readings; one malfunctioned after a sensor was             Service’s Office of Inspector General. To date,
replaced.                                                  a total of 17 airlines and four executives have



                                      Aviation and Special Programs    8
pled guilty or have agreed to plead guilty. Fines       balance graphs for the jet that ultimately crashed
of more than $1.6 billion have been imposed,            at Teterboro. He also admitted to altering graphs
and all of the pleading executives have been            on another Platinum Jet aircraft.
sentenced to time in prison. Note: Indictments,
informations, and criminal complaints are only          Two of Vieira’s co-defendants have pled guilty to
accusations by the Government. All defendants           conspiracy charges, while four others are sched-
are presumed innocent unless and until proven           uled to stand trial on October 12, 2010, in U.S.
guilty.                                                 District Court in Newark, New Jersey. Sentencing
                                                        for Vieira and the others who have pled guilty is
September 27, 2010                                      pending the outcome of the October trial.
Former Pilot of Defunct Private Jet
                                                        September 29, 2010
Company Admits to Defrauding FAA
                                                        Southern California Electron Tube
and Flying Illegal Charter Flights
                                                        Distributor Charged with Fraud
Francis Vieira, a former pilot of Platinum Jet          Involving Aircraft Parts and Wire Fraud
Management, LLC—a now-defunct luxury char-
ter jet company based out of Teterboro Airport in       Steven Jay Sanett, President and Chief Executive
New Jersey—pled guilty to conspiracy to commit          Officer of Penta Financial, Inc., doing business
wire fraud and to defraud the United States as          as Penta Laboratories (PENTA), was charged
part of a scheme to mislead charter customers           with fraud involving aircraft parts and mail fraud
and brokers and to impede and obstruct FAA.             for falsely representing the origin, source, and
                                                        condition of electron tubes.
Vieira flew for Platinum Jet from January 2003
to February 2005, the month in which one                Sanett instructed PENTA employees to prepare
of the company jets crashed after takeoff at            labels, packaging, and paperwork bearing false
Teterboro Airport. Our investigation revealed           or misleading information about the electron
that from November 2002 through November                tubes sold for use in commercial and military
2003, Platinum Jet did not have FAA authority           aircraft, medical equipment, and ground-based
to fly commercial charter flights. However, Vieira      radar. In addition to removing and replacing the
and his conspirators agreed to operate Platinum         original manufacturers’ logos and part numbers,
Jet as a charter and flew several dozen illegal         Sanett directed PENTA employees to fill cus-
flights, many of which were for famous athletes,        tomer orders with modified electron tubes and
musicians, and other well-known individuals.            refurbished electron tubes.
They falsified load manifests by indicating that
certain flights were private instead of charter.        This investigation was conducted jointly with the
Vieira admitted that on more than two dozen oc-         Defense Criminal Investigative Service, and the
casions, he fraudulently altered the weight and         Department of Homeland Security’s Immigration



                                    Semiannual Report to Congress    9
and Customs Enforcement. Note: Indictments,              noticed a spill inside a large sack containing
informations, and criminal complaints are only           smaller packets of pesticides. The investiga-
accusations by the Government. All defendants            tion revealed that Zheng knowingly transported
are presumed innocent unless and until proven            several hundred packets weighing more than
guilty.                                                  200 pounds of Buprophezin, an unregistered
                                                         pesticide designated by the Secretary of the
September 29, 2010                                       Department of Transportation as hazardous for
Woman Pleads Guilty and Is                               air transportation.

Sentenced for Distributing                               This investigation was conducted jointly with
Unregistered Pesticides                                  the Environmental Protection Agency - Criminal
                                                         Investigation Division, with assistance from the
Yuqiong Zheng pled guilty and was sentenced              U.S. Coast Guard Investigative Service; FAA;
in U.S. District Court, Saipan, Northern Mariana         and the Commonwealth of the Northern Mariana
Islands, to 2 years probation for distributing           Islands Divisions of Environmental Quality,
unregistered pesticides. In October 2008,                Customs, and Quarantine Office.
when Zheng arrived on a Northwest Airlines
flight in Saipan from China, Customs officials




                                   Aviation and Special Programs    10
       In Focus: Uncovering Aviation Safety Risks through
                 Joint Regulatory and Investigation Efforts


M      ajor air carriers are increasingly relying on
       contract maintenance facilities for aircraft
repairs. Since 2003, outsourced maintenance
                                                          annual inspection of an aircraft or engine had
                                                          been performed by an FAA-authorized inspector.
                                                          Because inspections validate an aircraft’s struc-
costs have accounted for 60 percent or more of            tural and operational integrity and help identify
total maintenance costs. Despite this significant         stress of aircraft components, these fraudulent
outlay, we have consistently found that FAA’s             labels could mask a catastrophic failure. FAA
oversight of aircraft repair facilities and parts         issued an emergency order of revocation for the
manufacturers lacks the rigor needed to ensure            fraudulent certificates.
outsourced repairs meet FAA standards and to
uncover fraud and abuse in aircraft maintenance,          Through Operation Wingspan, we uncovered the
certification, and parts supply.                          fraudulent manufacture, distribution, and sale of
                                                          military and civilian aircraft parts. Manufacturers
Several ongoing and completed investigations              conspired with various brokers and authorized
conducted jointly by FAA and OIG exemplify the            DOD contractors to sell substandard aircraft
surreptitious schemes businesses and individu-            parts—including skins, wings, and control sur-
als use to deceive FAA regulatory officials and           faces—to the Air Force for use in its E-3 Sentry,
the significant risks these deceptions introduce.         Airborne Warning and Control System, KC-135
For example, our investigations uncovered a               Airborne Refueling, and other aircraft. In some
scam involving the sale and use of fraudulent             cases, brokers further conspired with FAA repair
labels that indicated a satisfactory 100-hour or          stations to falsify FAA authorization documents,



                                     Semiannual Report to Congress    11
giving the illusion that the manufactured parts           local FAA orders regarding aircraft separation.
had been approved by FAA and were suitable                Our investigation also confirmed that two wind
for installation on aircraft. Thus far, Operation         detection devices available to controllers in the
Wingspan has resulted in the indictment of 6 indi-        Air Traffic Control Tower had provided inconsis-
viduals, all of whom have pled guilty; sentencings        tent wind readings and one malfunctioned even
culminating in 14 years imprisonment; and $3.4            after a sensor was replaced.
million in restitution and forfeitures.
                                                          By combining regulatory and law enforcement
A number of our investigations are prompted               efforts, we have uncovered blatant violations that
by whistleblower disclosures of potential dan-            resulted in criminal prosecutions, enforcement
gers. OIG investigators recently substantiated            action, dissemination of public safety notices,
whistleblower concerns about safety at Detroit            and hundreds of thousands of unapproved parts
Metropolitan Airport. Specifically, we confirmed          taken out of the aircraft parts supply chain. We
that in July 2008, a front-line FAA manager di-           will continue to work with FAA to identify and
rected controllers to authorize the departure of          investigate businesses and individuals who un-
three Boeing 747 jets in a manner that violated           scrupulously undermine air safety efforts.




                               In Focus: Uncovering Aviation Safety Risks      12
                                             Highway and Transit Programs

Audits                                               the CA/T Project. As we reported In August 2007,
                                                     the Phase I review—intended to identify immedi-
April 20, 2010                                       ate safety risks—was generally comprehensive.

The Commonwealth of Massachusetts’                   The Phase II safety review—an evaluation of all
Safety Review of the Central Artery/                 safety risks, completed in August 2008—was com-
                                                     prehensive and rigorous, and actions to address
Tunnel Project Was Comprehensive,                    many of the identified safety risks have been tak-
but FHWA’s Oversight Approach Has                    en. However, several risks remained unresolved,
Shortcomings                                         including implementing measures to improve the
Mandated by the National Transportation Safety       CA/T Project’s preparedness for a tunnel fire.
Board Reauthorization Act of 2006                    While the Federal Highway Administration (FHWA)
                                                     has taken action to oversee the Commonwealth’s
                                                     efforts to resolve safety risks, its approach has
In July 2006, a concrete ceiling panel fell and
                                                     several shortcomings. First, FHWA’s definition of
killed a motorist in one of the Central Artery/
                                                     a safety risk requiring independent field verifica-
Tunnel (CA/T) project’s tunnels, prompting the
                                                     tion is less stringent than the one used during
Commonwealth of Massachusetts to initiate an
                                                     the safety review. Second, FHWA’s protocol for
independent, two-phase safety review of the
                                                     conducting independent field verifications is not
Boston Metropolitan Highway System, including


                                 Semiannual Report to Congress    13
always followed. Third, FHWA’s working list for         efficiency, ownership, and insurance. However,
monitoring the Commonwealth’s actions omits             controls related to trade-in vehicle disposal
some potentially significant activities.                were less effective. Immediate consumer re-
                                                        sponse and the infusion of additional program
FHWA concurred or concurred in part with our            dollars presented significant implementation
recommendations for strengthening its oversight         challenges. We also found that NHTSA lacked
of the Commonwealth’s actions to address                a comprehensive plan to efficiently carry out
unresolved safety risks. While FHWA disagreed           remaining close-out activities—including evalu-
with our position pertaining to independent field       ating program compliance and determining total
verifications, the Federal Highway Administrator        program costs—and better inform the Secretary
expressed his commitment to ensuring the safety         of Transportation and Congress of its progress
of the CA/T.                                            and overall program performance. NHTSA con-
                                                        curred with our recommendations and provided
April 29, 2010                                          a description of the actions it took to address
                                                        program implementation challenges.
Final Report on Consumer
Assistance to Recycle and Save                          May 17, 2010
Program: Most Transactions Met                          Final Report on Actions Needed to
Program Requirements, but Program                       Mitigate Risks Associated with the
Completion Activities Continue                          Access to the Region’s Core Project
Mandated by the Consumer Assistance to                  Self-Initiated
Recycle and Save (CARS) Act of 2009
                                                        New Jersey Transit’s (NJT) Access to the
CARS required the National Highway Traffic              Region’s Core (ARC) project is one of the larg-
Safety Administration (NHTSA) to establish and          est transit infrastructure projects in the United
administer a program that would encourage con-          States. Project costs are estimated at more than
sumers to trade in their vehicles for new, more         $9 billion and the Federal Transit Administration
fuel-efficient vehicles. Congress established an        (FTA) plans to commit $3 billion through its New
aggressive implementation schedule, and tripled         Starts program. Given this considerable invest-
program funding 12 days into implementation.            ment and the risks inherent in a project of this
After 1 month, dealers requested payment for            magnitude, we evaluated FTA’s oversight of the
over 690,000 vehicle sales, nearly exhausting           project.
the $3 billion in program funds.
                                                        FTA’s oversight provided reasonable assurance
NHTSA’s controls over this complex program              that significant project risks were identified.
ensured that most CARS transactions met basic           However, FTA did not have NJT’s final project
program eligibility requirements—such as fuel           documents that describe strategies for mitigating


                                   Highway and Transit Programs      14
identified risks. We also found that NJT had yet          The Assistant Inspector General also noted that
to address certain ARC funding challenges, in-            FHWA’s current practices do not ensure that states
cluding uncertainty over long-term local funding,         are effectively using Highway Bridge Program
and lacked sufficient controls to detect fraud            and American Recovery and Reinvestment Act
and ensure contractor integrity.                          funds to improve their deficient bridges.

We made six recommendations to help ensure                August 17, 2010
FTA’s planned actions fully address ARC’s risks           Letter to Ranking Member Issa
and challenges. FTA concurred with five, and
partially concurred with one. We consider the
                                                          Regarding DOT’s Use of ARRA Signage
actions FTA has taken and plans to take as being          Requested by the Ranking Member of the House
fully responsive to our recommendations.                  Committee on Oversight and Government
                                                          Reform
July 21, 2010
                                                          We examined DOT’s policies and guidance on
FHWA Has Taken Actions but Could                          the use of ARRA signage and found that two of
Do More to Strengthen Oversight                           five DOT operating administrations (OA) receiv-
of Bridge Safety and States’ Use of                       ing ARRA funds—FTA and Federal Railroad
                                                          Administration (FRA)—originally required ARRA
Federal Bridge Funding                                    recipients to post signage to publicly identify the
Hearing before the House Transportation and               source or expenditure of ARRA funds. FTA and
Infrastructure Subcommittee on Highways and               FRA have relaxed their original ARRA signage
Transit                                                   requirements, and currently all five OAs encour-
                                                          age, rather than require, recipients to post signs.
FHWA has estimated that approximately $100
billion would be needed to address the more
than 150,000 bridges nationwide that have dete-
rioration, cracks, or other structural deficiencies.
OIG’s Assistant Inspector General for Highway
and Transit Audits testified that while FHWA
has taken action to prioritize bridge inspections
and better enforce National Bridge Inspection
Standards, sustained management attention is
needed to ensure that identified safety risks are
addressed, and that planned improvements in
the inspection oversight program are implement-
ed in time for FHWA’s 2011 inspection of states’
compliance with Federal bridge standards.



                                     Semiannual Report to Congress    15
Investigations                                           and the Pennsylvania State Police with FMCSA
                                                         assistance.
April 26, 2010
                                                         May 06, 2010
Three Sentenced to Imprisonment for                      More Charges Filed in Iowa Ready-Mix
Fraud Related to Fatal Truck Accident                    Concrete Price Fixing Conspiracy
in Philadelphia, Pennsylvania
                                                         Kent R. Stewart, President of Great Lakes
Victor Kalinitichll, Valerjis Belovs, and Joseph         Concrete, was charged in U.S. District Court,
Jadczak were sentenced in Montgomery                     Sioux City, Iowa, with violating the Sherman
County Court of Common Pleas, Norristown,                Antitrust Act. It is alleged that Stewart conspired
Pennsylvania, on charges related to an ac-               with others from January 2008 until August 2009
cident on U.S. Interstate 76 in Philadelphia,            to fix prices of ready-mix concrete sold to vari-
Pennsylvania, in which one person died and               ous companies in Iowa.
five others were seriously injured. Belovs drove
a commercial vehicle owned by Kalinitichll into          As part of the same investigation, Steven K.
stopped traffic. Each individual was sentenced to        VandeBrake, President of Alliance Concrete, Inc.,
23 months incarceration and fines ranging from           pled guilty on May 4, 2010, to antitrust violations
$300 to $2,000. Kalinitichll was also ordered to         for his role in ready-mix price fixing conspiracies.
pay $26,000 in restitution.                              VandeBrake admitted that he conspired with
                                                         individuals from three different companies to set
The investigation determined that the crash              pricing for ready-mix concrete sold to Iowa com-
resulted from the failure of the tractor-trailer’s       panies from January 2008 until August 2009.
brakes to function properly. Both Belovs and
Kalinitichll admitted they were aware of the             This joint investigation involved FBI, the U.S.
problem and took no steps to fix it. The inves-          Attorney’s Office, and the Department of Justice’s
tigation further determined that the commercial          Antitrust Division’s Chicago Field Office.
vehicle displayed a valid inspection sticker
provided by Jadczak, who admitted that he had            May 07, 2010
not inspected the truck. We also found that at
the time of the accident, Belovs was driving in
                                                         North Carolina Motor Carrier
excess of the maximum hours set by the Federal           Sentenced for Making False
Motor Carrier Safety Administration (FMCSA) for          Statements
operating a commercial vehicle.
                                                         In U.S. District Court, Winston-Salem, North
The investigation was conducted jointly with the         Carolina, Charles D. Goodwin, Inc. (CDGI), doing
Montgomery County District Attorney’s Office             business as Goodwin’s Trucking Company, was



                                    Highway and Transit Programs    16
sentenced to 5 years probation, a $35,300 fine,         Department of Public Safety—were indicted
and $400 special assessment for making false            on multiple counts of making false statements
statements to FMCSA regarding the company’s             related to commercial drivers’ licenses (CDL).
drivers’ hours of service.
                                                        The Mississippi Bureau of Investigation (MBI)
A FMCSA compliance review of CDGI following             requested assistance in investigating allegations
a multiple-fatality accident involving a com-           that state troopers had aided and abetted others
pany driver revealed that the driver had violated       in creating false test scores to obtain CDLs, and
FMCSA hours of service regulations. The driver          had made operational enhancements such as
was found not to be at fault in the accident,           hazmat and passenger endorsements without
but a subsequent investigation determined that          going through mandated state and Federal test-
between June 2007 and May 2008 CDGI driv-               ing requirements. The troopers were also alleged
ers made numerous false entries in their drivers’       to have aided and abetted others in altering CDL
duty status logs to cover up violations of the          driver records to reduce speeding infractions to
FMCSA hours of service regulations. In October          lesser charges and altering guilty judicial dispo-
2009, CDGI management pled guilty and admit-            sitions in driving records. If convicted, the troop-
ted to falsifying drivers’ duty status logs. While      ers are each subject to fines and a maximum of
on probation, and pursuant to a plea agreement,         5 years imprisonment.
electronic onboard recording devices that cap-
ture hours driven and speed must be installed           OIG is coordinating with FMCSA’s Southern
and maintained in all trucks owned by or under          Service Center to correct the driving records in
the control of CDGI.                                    an effort to mitigate any public safety concerns.
                                                        Ongoing analysis of the Commercial Driver
This case was investigated with significant as-         Licensing System and the National Driver Registry
sistance from FMCSA.                                    will determine if false statements were made by
                                                        other Mississippi Department of Public Safety
May 18, 2010                                            personnel. This investigation is being conducted
Mississippi State Troopers Indicted                     jointly with the FBI and MBI. FMCSA assistance
                                                        has been instrumental to the progress of the
for False Statements Related to                         investigation. Note: Indictments, informations,
Fraudulent Commercial Drivers’                          and criminal complaints are only accusations by
                                                        the Government. All defendants are presumed
Licenses
                                                        innocent unless and until proven guilty.
In U.S. District Court, Jackson, Mississippi,
Lieutenant Colonel (Retired) Joseph L. Rigby,
Captain (Retired) Johnny D. Rawls, Lieutenant
James C. Smith, and Master Sergeant Darrell
D. Walker—former troopers with the Mississippi


                                   Semiannual Report to Congress    17
June 4, 2010                                            June 10, 2010
Jury Convicts Man on Charges Related                    Engineering Company President
to Household Goods Fraud Scheme                         Sentenced to 12 Months
A Federal Jury in U.S. District Court, Portland,
                                                        Imprisonment and Ordered to Pay
Oregon, convicted Lester C. Kasprowicz on               $1.6 Million in Restitution for Mail
seven counts of mail fraud in connection with           Fraud Involving FHWA-Funded
his operation of illegal household goods moving
companies.                                              Contracts
                                                        Kamleshwar Gupta, President and CEO of Kam
This investigation—prompted by allegations of           Engineering, Inc. (KEI), was sentenced in U.S.
violations of FMCSA household goods regula-             District Court, Chicago, Illinois, for mail fraud
tions—determined that Kasprowicz continued              related to falsified information submitted to the
to operate his Oregon-based moving company              Illinois Department of Transportation (IDOT) and
following Federal and state permanent injunc-           other state entities for payment on state trans-
tion orders in May 2002, prohibiting him from           portation contracts. From 1994 to 2003, Gupta
doing business in household goods. Kasprowicz           submitted false invoices and financial information
defrauded customers by e-mailing or faxing mis-         regarding overhead expenses and the number of
leading or false estimates, then almost doubled         hours worked by KEI employees on contracts
charges after customers entered into a contract         for IDOT, Chicago Department of Transportation,
and their goods were loaded onto the moving             Metra, and the Illinois State Tollway Authority,
truck. If a customer refused to pay the inflated        many of which FHWA helped fund. In the
amount, Kasprowicz threatened to leave the              scheme to defraud, Gupta directed KEI’s 30-plus
customer’s goods on the street or store them at         employees to complete time sheets in pencil and
an unknown location until the customer paid.            then altered the time sheets by moving hours
                                                        among different jobs and contracts. Fraudulent
Kasprowicz illegally operated the household             invoices were then mailed to IDOT for payment.
goods moving company for years by using a host          The total amount of fraudulent invoices equaled
of ghost companies, false names, mail drops, and        more than $1.6 million.
multiple business names that resembled those
of well-known, legitimate moving companies.             Gupta was sentenced to 12 months and 1 day
Kasprowicz was convicted at trial and scheduled         imprisonment and 2 years supervised release,
for a detention hearing on June 8, 2010.                and ordered to pay $1.6 million in restitution.
                                                        Gupta has made full restitution to all parties in-
This investigation was conducted jointly with the       volved. Charges against KEI were dropped after
Oregon Department of Justice and FMCSA.                 indictment. KEI, now defunct, and Gupta were
                                                        suspended by FHWA.



                                   Highway and Transit Programs    18
June 17, 2010                                              of the act. Kessel and Pettijohn directed the
                                                           falsification of documents such as bills of lading
Louisiana Commercial Driver’s License
                                                           and drivers’ logs in order to illegally dispose of
Third-Party Examiner Sentenced                             hazardous waste water.

A Louisiana Department of Public Safety, Office
                                                           Kessel and Pettijohn were each sentenced to
of Motor Vehicles (LADPS-OMV) compliance
                                                           5 years probation, and ordered to perform 500
review revealed that Harold G. Stewart—owner
                                                           hours of community service and pay a $200 spe-
of Stewart Auto Sales (SAS), a registered third-
                                                           cial assessment. Kessel was also ordered to pay
party CDL tester in Zwolle, Louisiana—tested a
                                                           a $40,000 fine. TOG was sentenced to 3 years
large number of CDL candidates with no failure
                                                           probation, ordered to pay a $40,000 fine, and a
ratings, a fraud indicator. During OIG’s interview
                                                           $200 special assessment.
of Stewart, he admitted to falsifying the skills
tests for 250 CDL candidates for which he was
paid approximately $200 per test. The LADPS-               This continuing investigation is being jointly
OMV recalled and retested all 320 CDL drivers              conducted with the Environmental Protection
SAS had tested.                                            Agency - Criminal Investigation Division, with
                                                           assistance from state environmental agencies.
Stewart pled guilty to making a false statement
                                                           August 16, 2010
for his role in falsifying 250 (out of 320) CDL skills
tests. Stewart was sentenced to 5 years probation          Former Owners of Pennsylvania Bridge
and 25 hours of community service, assessed a              Beam Manufacturer Plead Guilty in
$500 fine, and ordered to make restitution in the
amount of $7,316.03 to LADPS for expenses the              $136 Million DBE Fraud
State incurred in recalling and re-testing drivers
                                                           Ernest G. Fink, Jr.—former co-owner, Vice
who obtained CDLs through Stewart.
                                                           President, and Chief Operating Officer of
                                                           Schuylkill Products, Incorporated (SPI) and
July 21, 2010
                                                           its wholly-owned subsidiary CDS Engineers
Texas Transportation Company and                           Incorporated (CDS)—pled guilty in U.S. District
Officials Sentenced for Hazmat                             Court, Harrisburg, Pennsylvania, to charges of
                                                           criminal conspiracy to commit wire fraud to de-
Violations                                                 fraud DOT’s Disadvantaged Business Enterprise
                                                           (DBE) program. Fink and others at SPI manu-
Texas Oil and Gathering, Inc. (TOG), its owner
                                                           factured concrete products for highway and
John Kessel, and operations manager Edgar
                                                           transit construction projects, and CDS operated
Pettijohn were sentenced in U.S. District Court,
                                                           as SPI’s engineering and erection division. The
Houston, Texas, on one count of conspiracy to
                                                           “pass-through” scheme, which is alleged to
violate the Safe Drinking Water Act, and one
                                                           have run for over 15 years, involved the improper
count of knowingly disposing of waste in violation


                                      Semiannual Report to Congress    19
award of over 330 federally-funded highway and            August 17, 2010
transit contracts in Pennsylvania valued at over
                                                          Pennsylvania Motor Carrier Broker and
$136 million, making it the largest reported DBE
fraud in DOT history.                                     Sons Plead Guilty to Double Brokering
                                                          Scheme
Fink admitted that he and others used Marikina
Construction Company, a Pennsylvania DOT- ap-             Rubik Avetyan and his two sons, Alfred and
proved DBE since 1993, as a front company to              Allen Avetyan, pled guilty in U.S. District Court,
obtain lucrative government contracts reserved            Harrisburg, Pennsylvania, to one count of crimi-
for small and disadvantaged businesses. The               nal conspiracy related to a “double brokering”
indictment alleged that between 1993 and 2008,            scheme in which they provided false information
SPI and CDS personnel negotiated, coordinated,            to FMCSA to illicitly acquire a DOT motor car-
performed, managed, and supervised over $136              rier registration number for their company, State
million in DOT-funded contracts awarded to                Transport, Inc. The Avetyans admitted that they
Marikina. Fink admitted that all the profits from         obtained loads from unsuspecting brokers as
the contracts ended up with SPI and CDS. In               State Transport, Inc., and then used a different
exchange for allowing SPI and CDS to use its              company name to broker the loads to other
name, Marikina was paid a fixed fee for each              carriers with the intent of not paying the carriers
contract.                                                 that actually delivered the loads. The Avetyans
                                                          received payments from the original brokers but
Previously, three former executives associated            did not pay the carriers. State Transport used a
with SPI, CDS, and Marikina pled guilty to crimi-         post office drop box and a telephone service to
nal charges and admitted that they took numer-            forward calls and facsimiles from the Harrisburg
ous fraudulent steps to conceal the scheme.               area to California to conceal its true identity and
The scheme included SPI and CDS personnel                 location.
pretending to be Marikina employees by using
Marikina passwords, signature stamps, business            The forfeiture agreement associated with
cards, letterhead, and e-mail addresses, as well          the Avetyans’ plea requires recovery of
as placing magnetic placards and decals with              $1,060,902.26. A sentencing date has not yet
the Marikina logo to cover up logos on SPI and            been set. In June 2009, FMCSA revoked State
CDS trucks.                                               Transport’s new entrant registration and ordered
                                                          it to cease interstate operations.
This investigation was conducted jointly with
the FBI, the Department of Labor OIG, and the             The investigation was conducted jointly with the
Internal Revenue Service’s Criminal Investigation         U.S. Postal Inspection Service and the Bureau of
Division. A criminal trial for the remaining defen-       Alcohol, Tobacco, Firearms, and Explosives with
dant, SPI’s former co-owner, president and CEO,           the assistance of FMCSA.
is pending.


                                     Highway and Transit Programs    20
August 18, 2010                                         Wilson and Michel Lominy, both driving school
                                                        operators, in which cash payments were made
Pennsylvania Driver’s License and
                                                        to PennDOT driver’s license examiners in
Commercial Drivers’ Licenses Fraud                      exchange for issuing illicit drivers’ licenses to
Rings Busted                                            unqualified foreign nationals. Lominy employed
                                                        Jean-Louis who, instead of acting as an inter-
A Federal grand jury in Philadelphia,                   preter, assisted Lominy’s customers in cheating
Pennsylvania, charged Vitaliy Kroshnev, his wife        on the Pennsylvania driver’s license examination.
Tatyana Kroshnev, and seven others with making          Lominy charged his customers up to $2,000 for
false statements, identification document fraud,        each fraudulent driver’s license. Another license
and bank fraud for their role in a conspiracy that      examiner, Roy G. Davila, allegedly used his posi-
allegedly aided more than 300 unqualified indi-         tion as an examiner to obtain cash payments in
viduals in fraudulently obtaining Pennsylvania          exchange for issuance of Pennsylvania drivers’
CDLs.                                                   licenses.

From 2007 to 2010 the defendants, under the             In July 2010, Lominy was sentenced to 4 years
auspices of the Kroshnevs’ International Training       imprisonment after pleading guilty to Federal
Academy (ITA)—a truck-driving training facil-           charges of conspiracy, extortion, and identifica-
ity and business that rented tractor-trailers for       tion fraud. On August 18, 2010, Jean-Louis was
FMCSA-regulated CDL Skills Tests—arranged               sentenced to 1 year imprisonment, 3 years su-
for hundreds of non-residents of Pennsylvania           pervised release, and fined $1,200 in connection
to fraudulently obtain Pennsylvania CDLs. The           with extortion and identification fraud charges.
indicted conspirators allegedly bypassed federal        On September 9, 2010, a Federal grand jury in
regulations by providing applicants with false          Philadelphia, Pennsylvania, charged Davila with
Pennsylvania residency documents, as well as            manufacturing fraudulent identification docu-
foreign language interpreters to provide appli-         ments, extortion, and aggravated identity theft.
cants the answers for the CDL Knowledge Test.           Wilson has pled guilty and his sentencing is
                                                        pending. Steele is awaiting trial for his role in the
While examining allegations involving the al-           scheme.
leged false CDLs, we initiated investigations
of a sophisticated, fraudulent government               OIG continues to analyze ITA business records
identification document ring that uncovered             to assist PennDOT in identifying and address-
illegal cash payments to Pennsylvania DOT               ing CDL holders who obtained their licenses
(PennDOT) officials, including Alexander Steele,        through ITA. OIG, PennDOT, and FMCSA con-
a driver’s license examiner. Our investigations         tinue to develop a strategy for best addressing
uncovered evidence that Pierre E. Jean-Louis, a         the drivers who allegedly used false residency
former PennDOT-approved interpreter and CDL             documents and corrupt interpreters to obtain
holder, participated in a scheme with Alphonso          their CDLs. These ongoing investigations are


                                   Semiannual Report to Congress    21
being conducted jointly with the Department of          transportation workplace drug and alcohol test-
Homeland Security’s Immigrations and Customs            ing programs.
Enforcement, the Internal Revenue Service, the
FBI, and with assistance from FMCSA and the             This investigation was conducted with signifi-
Pennsylvania State Police. Note: Indictments,           cant investigative assistance from FAA, FMCSA,
informations, and criminal complaints are only          and DOT’s Office of Drug and Alcohol Policy and
accusations by the Government. All defendants           Compliance.
are presumed innocent unless and until proven
guilty.                                                 September 7, 2010

August 30, 2010                                         Former West Virginia Department of
North Carolina Man Sentenced to 22                      Transportation Employee Sentenced
Months in Jail for Fraudulent Medical                   to Five Years Probation for Interference
Review Officer Scheme                                   with Commerce by Extortion
                                                        Gwen Conley, former transportation engineering
Michael R. Bennett—doing business as
                                                        technician with the West Virginia Department of
Workplace Compliance, Inc. (WCII), a drug and
                                                        Transportation (WVDOT) Division of Highways,
alcohol testing consortium—was sentenced
                                                        was sentenced in U.S. District Court, Charleston,
in U.S. District Court, Winston-Salem, North
                                                        West Virginia, to 5 years probation and ordered
Carolina, to 22 months imprisonment and 3 years
                                                        to pay a $6,000 fine as a result of his guilty plea
supervised release, and ordered to perform 100
                                                        to interference with commerce by extortion, a
hours of community service and pay a $400
                                                        Hobbs Act violation.
special assessment for fraudulently conducting
unauthorized final reviews on numerous drug
                                                        Conley used his WVDOT position—which includ-
test results from laboratories used by motor car-
                                                        ed oversight authority for the federally funded $21
riers and air carriers. WCI was placed on 3 years
                                                        million Route 10 project in Man, Logan County,
probation and ordered to pay a $1,200 special
                                                        West Virginia—to extort thousands of dollars from
assessment. Mr. Bennett and WCI are both liable
                                                        Environmental Solutions, LLC (ESL), a project
for restitution up to $209,030.
                                                        subcontractor responsible for temporary erosion
                                                        control and hydroseeding. From November 2007
Our investigation revealed that between 2005
                                                        through August 2008, Conley asked for and
and 2009 Mr. Bennett obtained lab test results
                                                        received money from ESL for claiming that ESL
and used computer software to generate fraudu-
                                                        performed more erosion control services than it
lent Medical Review Officer (MRO) reports.
                                                        did. The owner of ESL paid Conley based on a
These reports claimed that an MRO had verified
                                                        percentage of the money Conley calculated ESL
the lab test results and that the report was in
                                                        would make on the work it did not perform.
compliance with the Department’s regulations of



                                   Highway and Transit Programs    22
This investigation was conducted jointly with the       a trucking company subcontractor in connection
West Virginia State Police and with substantial         with at least three New York State Metropolitan
assistance from FHWA.                                   Transportation Authority construction projects
                                                        on which Yonkers was bidding—including the
September 23, 2010                                      Atlantic Yards Arena Development in Brooklyn,
Former New York Construction                            a federally funded project on which Yonkers bid
                                                        around $346 million. The arrangement involved
Company Vice President Convicted                        the trucking company owner building 25 to 50
for Soliciting Kickbacks from                           cents a ton into his price proposals, payable in
                                                        kickbacks to Iorio, who would use his influence
Subcontractor
                                                        to ensure the trucking company was chosen for
Joseph Iorio, former Vice President of                  the subcontract work if Yonkers was awarded the
Construction of Yonkers Contracting Company,            projects. The arrangement was kept discrete and
was convicted by a Federal jury, Brooklyn, New          hidden from Yonkers; Isoro was paid by checks
York, on charges of mail and wire fraud. The            made out to JJA Construction, a business entity
charges were based on his role in soliciting            associated with Iorio.
approximately $194,000 in kickbacks from a
trucking subcontractor on construction projects,        A future sentencing date will be set by the Court.
including an FHWA-funded project.                       This investigation was conducted jointly with the
                                                        Department of Labor OIG and the Port Authority
The investigation revealed that between March           of New York and New Jersey OIG.
and October 2008, Iorio solicited kickbacks from




                                   Semiannual Report to Congress    23
Highway and Transit Programs   24
        In Focus: Ensuring Safety of the Nation’s Bridges
     through Enhanced Oversight of Federal Investments


F   HWA estimates that $100 billion is needed
    to address existing bridge deficiencies and
make other improvements. Nearly 150,000 of the
                                                        we found that inaccurate or outdated maximum
                                                        bridge weight limit calculations and posting en-
                                                        tries were recorded in state and national bridge
Nation’s bridges are considered deficient due to        databases, possibly causing decision makers to
major deterioration, cracks, or other structur-         misdirect funds and actions intended to reduce
al deficiencies, and more than 23,000 of these          the number of deficient bridges. We also report-
bridges are part of the National Highway Sys-           ed that limitations in FHWA’s Fiscal Manage-
tem—roadways that FHWA classifies as impor-             ment Information System impede FHWA’s ability
tant to our economy, defense, and mobility. In-         to track how states are using Federal dollars to
stituting effective bridge funding and inspection       improve deficient bridges.
programs is critical to maximizing investments
                                                        FHWA’s bridge safety programs are also hindered
and overseeing states’ bridge safety efforts.
                                                        by a lack of clear and comprehensive guidance
Over the last several years, we have reported on        on what actions FHWA bridge engineers should
the challenges FHWA has encountered in estab-           take when states fail to comply with bridge in-
lishing and maintaining effective bridge funding        spection standards, providing little assurance
and inspection programs. Key among these chal-          that states are taking needed actions to improve
lenges is the lack of a data-driven, risk-based         bridge safety. In early 2010, we reported that 7 of
approach to bridge oversight—one that would             the 11 bridge engineers we surveyed responded
target the most significant bridge safety risks.        that FHWA’s guidance did not adequately define
We first identified this challenge in 2006 when         when to suspend funds to enforce compliance.



                                   Semiannual Report to Congress    25
Consequently, Federal-aid highway funds were                 program in 12 division offices that uses the new
provided to states with serious incidents of non-            metrics and a prototype database for recording
compliance. In one case, a bridge engineer re-               results and generating reports. However, FHWA
ported to FHWA that a state was substantially                has shown little progress in acquiring data to
compliant, despite the state’s failure to close 96           evaluate states’ use of Highway Bridge Program
bridges as required by bridge inspection stan-               funding. Sustained management attention is
dards.                                                       needed to ensure that data weaknesses are cor-
                                                             rected and that the pilot program is fully imple-
As we testified in July 2010, FHWA is taking
                                                             mented during the next bridge inspection cycle,
steps to respond to our recommendations. Spe-
                                                             scheduled for 2011.
cifically, FHWA is developing a uniform definition
of compliance with its bridge standards, and da-             We will continue to monitor FHWA’s efforts to
ta-driven, risk-based metrics for assessing state            fully implement our recommendations.
compliance. The Agency also launched a pilot




                             In Focus: Ensuring Safety of the Nation’s Bridges      26
                                              Rail and Maritime Programs and
                                                           Economic Analysis

Audits                                                    of 1970, Amtrak is only required to pay host rail-
                                                          roads for the incremental cost associated with its
April 8, 2010                                             track usage. During fiscal year 2009, Amtrak paid
                                                          $115 million in track usage payments to freight
Letter to Appropriations Committees                       railroads, accounting for roughly 3.3 percent of
Regarding Amtrak User Fees for Right-                     its total operating expense.

of-Way Access and Incentive Payments                      April 29, 2010
for On-Time Performance                                   Federal Railroad Administration Faces
Mandated by the Fiscal Year 2009 Omnibus
Appropriations Act
                                                          Challenges in Carrying Out Expanded
                                                          Role
Our report to the Committees on Appropriations            Hearing before the Senate Appropriations
identified user fees paid by Amtrak to freight rail-      Subcommittee on Transportation, Housing and
roads, irrespective of funding source, for access         Urban Development, and Related Agencies
to the right-of-way and any incentive payments
paid related to on-time performance. Amtrak               The Deputy Inspector General testified on the
does not pay a market-based “access fee” for              challenges FRA faces in carrying out the duties
use of a host freight railroad’s track. Instead,          of its expanded role under the Passenger Rail
pursuant to the Railroad Passenger Service Act            Investment and Improvement Act (PRIIA) and


                                     Semiannual Report to Congress    27
the Rail Safety Improvement Act (RSIA) while still         Much of the savings achieved in the first half of
carrying out its prior responsibilities, including         the year are expected to erode in the second half
overseeing Amtrak. Together PRIIA and RSIA                 as Amtrak forecasts a year-end operating loss
call for the implementation of a high-speed                of $552.1 million—$10.9 million or 1.9 percent
rail program, improvements in intercity pas-               better than budget, but $94.2 million more than
senger rail services, and safety enhancement               fiscal year 2009.
initiatives. The Deputy Inspector General noted
that each new mandate carries a unique set of              While Amtrak no longer focuses on measuring
challenges for FRA, especially as they relate to           savings from reform initiatives, its use of re-
implementing the high-speed rail program. She              cently implemented key performance indicators
also noted that ARRA exacerbated these chal-               appears to be an efficient approach to gauge
lenges by accelerating timelines and providing             company performance and monitor operating
FRA with an additional $8 billion. Finally, the            and financial performance to budget.
Deputy Inspector General noted that while we
have found that Amtrak has improved its operat-            September 23, 2010
ing and capital planning, new PRIIA mandates
and ARRA funding could require Amtrak to make
                                                           Implementation of New Metrics
more improvements.                                         and Standards Is Key to Sustaining
                                                           Improvement in On-Time Performance
May 17, 2010
                                                           on Amtrak’s Cascades and Coast
Semiannual Report on Amtrak’s                              Starlight Routes
Financial and Operating Performance                        Mandated by the Passenger Rail Investment and
and Savings from Reform                                    Improvement Act of 2008
Mandated by the Consolidated Appropriations
Act, 2010                                                  Together, the Coast Starlight and Amtrak
                                                           Cascades passenger rail corridors run more
Our semiannual report to the House and Senate              than 1,800 miles between Vancouver, British
Appropriations Committees identified Amtrak’s              Columbia, and Los Angeles, California. On-time
year–to–date financial performance and savings             performance (OTP) of these and other intercity
from operational reforms. In the first 6 months            passenger trains directly impacts Amtrak’s bot-
of fiscal year 2010, Amtrak’s operating loss of            tom line and its efforts to successfully implement
$263.3 million was $71.4 million, or 21.3 per-             high-speed and intercity passenger train service.
cent, better than budgeted. However, this loss is
$12.2 million more than the loss during the first          While the Coast Starlight and Amtrak Cascades
6 months of fiscal year 2009. The lower-than-              lines experienced significant delays from 2004
budgeted loss was due to higher–than-expected              through 2009, total minutes of delay on both lines
revenues and lower-than-expected expenses.                 dropped after 2006. Several factors contributed


                            Rail and Maritime Programs and Economic Analysis      28
to the decrease in delays—and ultimately the          long term. We made recommendations to the
lines’ improved OTP—including improved op-            FRA Administrator to ensure that the benefits of
erations by the host railroads and Amtrak, and        recent Federal intercity passenger rail legislation
reduced freight traffic caused by the depressed       are fully realized and improvements in OTP for
economy. FRA has taken action to develop              the Coast Starlight and Amtrak Cascades are
new OTP metrics and standards, as required            sustainable. FRA concurred with all of our rec-
by PRIIA. However, delays in issuing these new        ommendations and proposed appropriate action
performance measures have stalled other ac-           plans.
tions that could further improve OTP over the




                                 Semiannual Report to Congress    29
Rail and Maritime Programs and Economic Analysis      30
              In Focus: The Federal Railroad Administration’s
                    Challenges in Meeting Its Expanded Role


I n April 2009, the President, along with the Vice
  President and the Transportation Secretary, an-
nounced a vision for a new national network of
                                                          and practices to guide the program’s grant life-
                                                          cycle process and oversight activities, and obtain
                                                          adequate staff to oversee implementation. ARRA
high-speed rail corridors. Implementing the High-         exacerbated these challenges by accelerating
Speed Intercity Passenger Rail (HSIPR) program            timelines and providing FRA an additional $8 bil-
significantly changes the Nation’s transportation         lion for discretionary grant programs to jump start
system and requires substantial planning on the           the development of high-speed rail corridors and
part of the states and the Federal Government.            enhance intercity passenger rail service. Since
PRIIA, RSIA, and ARRA outline the goals of HSIPR.         then, Congress has appropriated an additional
                                                          $2.5 billion for HSIPR program grants.
The greatest responsibility for implementing
HSIPR falls on FRA, dramatically altering FRA’s           While FRA is charged with implementing a high-
role. Together, PRIIA and RSIA call for the im-           speed rail program, it must also continue to ex-
plementation of a high-speed rail program, im-            ecute its rail safety responsibilities and its over-
provements in intercity passenger rail services,          sight of Amtrak. Specifically, FRA must effectively
and safety enhancement initiatives. FRA must              manage the Rail Line Relocation discretionary
coordinate with hundreds of public and private            grant program, the Railroad Rehabilitation and
stakeholders to establish a national rail plan that       Improvement Financing Loan program, and the
addresses interconnectivity with other modes of           Amtrak grant program. Together, these programs
transportation and recognizes the need for a sus-         account for more than a third of FRA’s total bud-
tainable funding mechanism to support passen-             get.
ger rail. FRA must also develop written policies



                                   Semiannual Report to Congress    31
Our November 2009 Top Management Challeng-                    in FRA’s guidance for access agreements. We
es report, along with our ARRA-related work,                  also have ongoing work to identify best practices
identified the risks inherent in FRA’s expanded               in financial forecasting for HSIPR projects. This
role and in investing Federal grant funds in pri-             work will assist FRA in awarding and monitoring
vate rail infrastructure. We have ongoing work                the development of projects that receive HSIPR
reviewing access agreements between states                    grants. Through our monitoring and evaluation of
and private freight railroads that will assist FRA in         FRA’s implementation of the HSIPR program, we
achieving HSIPR program benefits. At this time,               will continue to communicate to the Secretary,
FRA is working with freight railroads to address              the Congress, and the public the important is-
their concerns about the requirements outlined                sues associated with FRA’s transformation.




                          In Focus: The Federal Railroad Administration’s Challenges      32
                               Financial and Information Technology

Audits                                                requirements of generally accepted government
                                                      auditing standards; the Single Audit Act of 1984,
May 19, 2010                                          as amended; and OMB Circular A–133. We found
                                                      nothing to indicate that Clifton Gunderson’s
Quality Control Review of Single Audit                opinion on the financial statements or reports on
on the Washington Metropolitan Area                   internal control and compliance were inappropri-
                                                      ate or unreliable.
Transit Authority
                                                      June 18, 2010
During fiscal year ending June 30, 2009, the
Washington Metropolitan Area Transit Authority        Information Security and Privacy
expended approximately $281 million in grants         Controls over the Airmen Medical
from FTA and FHWA. Clifton Gunderson LLP
rendered an unqualified (clean) opinion on the        Support Systems
Authority’s financial statements and compliance       Requested by the Chairmen of the House
with major Federal programs. However, Clifton         Committee on Transportation and Infrastructure
Gunderson recommended that the Authority              and its Subcommittee on Aviation
correct deficiencies related to the application
of its indirect cost rate. We determined that         FAA’s Airmen Medical Support Systems (MSS)
Clifton Gunderson’s work generally met the            currently stores more than 18 million medical



                                 Semiannual Report to Congress    33
records supporting the medical assessments of                and FRA. Maher Duessel, CPAs, rendered an
over 3 million airmen. To ensure aviation safety             unqualified (clean) opinion on the Authority’s
and protect the privacy of airmen, it is critical that       financial statements and compliance with major
this information be secure. However, we found                programs. We determined that Maher Duessel’s
that serious security lapses in FAA’s manage-                work generally met the requirements of generally
ment of MSS made airmen’s personally identifi-               accepted government auditing standards; the
able information (PII) vulnerable to unauthorized            Single Audit Act of 1984, as amended; and OMB
access. Further, only limited progress has been              Circular A–133. We found nothing to indicate
made in identifying airmen who receive disability            that Maher Duessel’s opinion on the financial
benefits while holding medical certificates.                 statements or reports on internal control and
                                                             compliance were inappropriate or unreliable.
We made a series of recommendations to
strengthen the confidentiality, integrity, and               August 9, 2010
availability of airmen’s PII, and to ensure unquali-         Letter to Representatives Mica and
fied airmen do not receive medical certifications
allowing them to fly. FAA concurred with all but
                                                             Petri Regarding Air Traffic Control Web
one of our recommendations: to implement                     Security
multifactor user authentication, as required by              Requested by the Ranking Members of the House
OMB. FAA has begun to take action to address                 Transportation and Infrastructure Committee and
identified weaknesses in order to provide greater            its Subcommittee on Aviation
assurance that sensitive information is pro-
tected from misuse and airmen holding medical                As the result of a roundtable discussion on FAA’s
certifications are fit to fly.                               air traffic control system’s vulnerability to cyber
                                                             attack, Representatives Mica and Petri asked
July 21, 2010                                                us to provide an update on FAA’s efforts to
Quality Control Review of Single Audit                       implement recommendations made in our “Web
                                                             Applications Security and Intrusion Detection
on the Port Authority of Allegheny                           in Air Traffic Control Systems” report, issued
County                                                       in May 2009. Of the five recommendations we
                                                             made, FAA has implemented four, but has not
For fiscal year ending June 30, 2009, the Port
                                                             yet established a timetable for completing
Authority of Allegheny County expended ap-
                                                             the work necessary to address the remaining
proximately $115 million in grants from FTA
                                                             recommendation.




                                    Financial and Information Technology      34
Investigations                                             September 20, 2010
                                                           Former Federal Railroad Administration
July 15, 2010                                              Employee Sentenced for Theft of
Pilot Sentenced for Making False                           Government Property
Statements on His Medical Application
                                                           Contonja Saunders, a Financial Management
In the Northern District of California, Bruce N.           Specialist formerly with the Research and
Moody was sentenced to 12 months probation                 Innovative Technology Administration (RITA)
and ordered to pay $1,000 in restitution for his           and FRA, was sentenced in U.S. District Court,
role in falsifying his airman medical application.         Greenbelt, Maryland, to 5 years probation and
Moody failed to report on his 2001, 2003, 2005,            240 hours of community service, and ordered to
2007, and 2008 airman medical applications that            pay $30,090 in restitution for theft of Government
he suffered from insomnia, depression, poor                property.
concentration, anxiety, fatigue, and memory
difficulties while serving as a pilot in command.          Saunders admitted to taking five U.S. Government
Moody admitted to lying about his condition on             cell phones in April 2007 and distributing them
FAA Form 8500.8.                                           for her and her family’s personal use. She desig-
                                                           nated herself the Verizon account representative
This investigation was initiated as a result of a re-      without authorization, then accessed DOT ac-
ferral from FAA alleging that Moody had been re-           counting systems to approve payments of over
ceiving disability benefits from the Social Security       $30,000 in Government funds on the Verizon
Administration (SSA) and the Department of                 account. To avoid detection, Saunders changed
Veterans Affairs (VA) for a psychiatric diagnosis,         the Verizon billing address from DOT to her
yet failed to disclose the information to FAA. The         home address after she transferred from RITA
investigation was conducted by the OIG, with               to FRA and enlisted the aid of a DOT intern to
technical assistance from the SSA, VA, and FAA.            screen Verizon account notifications. Saunders
                                                           resigned from her position with FRA on August
                                                           7, 2010.




                                      Semiannual Report to Congress    35
Financial and Information Technology  36
                                                  Acquisition and Procurement


Audits                                                  we found that FMCSA’s pre-award processes
                                                        were inadequate for ensuring effective business
August 24, 2010                                         arrangements and maximizing competition. We
                                                        also found that FMCSA lacked effective admin-
Federal Motor Carrier Safety                            istration and oversight of its contracts to ensure
Administration Lacks Core Elements                      that the Agency’s needs were met in the most
                                                        efficient and economical manner. FMCSA’s ac-
for a Successful Acquisition Function                   quisition framework lacked organizational align-
Requested by the Federal Motor Carrier Safety           ment and leadership, policies and processes,
Administrator                                           acquisition data, and human capital—all of which
                                                        are critical components for operating effectively.
To achieve its primary mission of reducing
crashes, injuries, and fatalities involving large       Throughout our audit, FMCSA officials cited
trucks and buses, FMCSA spends about 40                 actions they had undertaken to improve pro-
percent of its procurement dollars on contract          curement practices and stated that additional
arrangements—compared to about 5 percent                enhancements were under way. We made a num-
governmentwide. FMCSA’s contracts are con-              ber of recommendations to improve FMCSA’s
sidered high risk because they tie contractors’         acquisition practices—practices that should
profits to numbers of hours worked. However,            enable the Agency to better position itself to


                                   Semiannual Report to Congress    37
fulfill its mission. FMCSA concurred with all of        that (1) performance evaluation plans did not
our recommendations.                                    include measurable criteria to adequately evalu-
                                                        ate contractor performance; (2) rating descrip-
August 25, 2010                                         tions were vague and/or inconsistent and did
Improvements in Cost-Plus-Award-                        not clearly define the basis for performance; (3)
                                                        performance monitors did not provide adequate
Fee Processes Are Needed to Ensure                      support to justify contractor ratings; (4) payment
Millions Paid in Fees Are Justified                     structures allow for award fees for average or
Self-Initiated                                          below-average performance; and (5) contracting
                                                        officials did not justify the cost effectiveness of
While cost-plus-award-fee (CPAF) contracts              selecting a CPAF contract.
can encourage excellence by providing financial
incentives based on contractor performance,             We made a number of recommendations to im-
they require effective monitoring to ensure con-        prove DOT’s design, administration, and overall
tract dollars are spent wisely and award fees are       management of CPAF contracts and increase the
justified based on contractor performance and           effectiveness of award fees as an incentive for
related expected outcomes.                              excellent contractor performance. In a consoli-
                                                        dated response from the Office of the Secretary
However, DOT’s Operating Administrations have           of Transportation (OST), FAA concurred with
not effectively designed, administered, or justi-       our recommendations targeted for FAA. OST
fied their CPAF contracts. For example, we found        concurred with two of our recommendations for
                                                        OST and partially concurred with the other two.




                                    Acquisition and Procurement      38
Investigations                                          September 13, 2010
                                                        Buffalo Concrete Supplier Pleads Guilty
September 10 2010                                       to Fraud and Forfeits $1.8 Million
New Jersey Construction Firm Owner
                                                        Oscar Rayford, owner of Rayford Enterprises, a
Pleads Guilty to DBE Fraud Scheme                       certified DBE, pled guilty in the Western District
                                                        of New York to one count Information charging
Eva C. Glasgow, owner of Eva Glasgow
                                                        him with mail fraud in connection with a scheme
Contractors, Inc. (EGC), Pennsauken, New
                                                        to defraud the Federal DBE program. As part of
Jersey, pled guilty in U.S. District Court, Camden,
                                                        the plea, Mr. Rayford agreed to forfeit $1.8 mil-
New Jersey, to charges of conspiring to make
                                                        lion to the Government.
false statements on DBE utilization reports and
to making false statements and concealing
material facts related to prevailing wage statutes.     Between 2001 and 2007, Rayford falsely repre-
                                                        sented to various Government agencies that his
                                                        company, a concrete manufacturer, performed a
Our investigation revealed that Glasgow
                                                        “commercially useful function” on five separate
consipired with two unindicted contractors
                                                        FHWA-funded highway construction projects.
to use EGC as a pass-through in order for
                                                        The investigation disclosed that Lafarge North
one of the unindicted contractors to claim
                                                        America, a non-DBE concrete supplier, per-
credit for meeting DBE contract goals on a $26
                                                        formed in excess of $3.2 million of work on
million FHWA-funded road construction project.
                                                        Rayford’s behalf, with Rayford keeping a small
Glasgow admitted that as part of the conspiracy,
                                                        percentage of the value of the subcontracts.
one of the unindicted contractors was able to
claim credit for millions of dollars in fraudulent
DBE work that was reportedly performed by EGC           A sentencing date has not been scheduled.
but in actuality was performed by a non-DBE
                                                        September 27, 2010
subcontractor. Additionally, Glasgow admitted to
having submitted false certified payroll records to     FAA Employee Pleads Guilty to
New Jersey claiming that EGC employees who              Stealing $123,774
did work at the construction site were paid the
prevailing rate and benefits, when the evidence         Keysha Logan, a management assistant in
in the investigation indicated that they were paid      FAA’s Finance Services Comptroller Group,
less than the required rate.                            Washington, D.C., pled guilty in U.S. District
                                                        Court in Greenbelt, Maryland, to embezzlement.
This investigation is being conducted jointly with
the Internal Revenue Service and the Department
of Labor OIG.




                                    Semiannual Report to Congress   39
Logan admitted that from 2007 to 2010, she used       gift cards. Logan used the gift cards for her per-
her Government-issued credit card to buy gift         sonal benefit and used FAA’s computer system
cards from Office Depot and other retailers, kept     to approve the Government’s payment for the
the gift cards for personal use, and approved         charge.
Government funds to pay for the purchase of the
gift cards. For example, on January 23, 2010,         The total loss resulting from the embezzlement
Logan charged $535.43 on her Government               scheme is $123,774.47. FAA has initiated ad-
MasterCard at Office Depot to purchase a $200         ministrative proceedings against Logan. Logan
American Express gift card and three $100 Visa        is scheduled to be sentenced in January 2011.




                                   Acquisition and Procurement
                                     Departmentwide   Issues  40 40
                                                             Departmentwide Issues

April 23, 2010                                        As of April 6, 2010, we identified 341 open recom-
                                                      mendations included in 107 audit reports. Of the
Letter to Ranking Member Issa
                                                      341 open recommendations, 45 recommenda-
Regarding the Status of Open Audit                    tions in 33 reports carry an estimated monetary
Recommendations                                       benefit or cost savings. We determined the three
Requested by the Ranking Member of the House          most important recommendations based on
Committee on Oversight and Government                 whether the recommendation will lead to signifi-
Reform                                                cant improvements in safety, significant financial
                                                      benefits, or significant improvements in the
                                                      economy or efficiency of the program audited.
In his March 24, 2010, letter, Congressman Issa
                                                      Last, between January 5, 2009 and April 6, 2010,
asked OIG to provide information on the number
                                                      we closed 424 recommendations contained in
of open recommendations; estimated cost sav-
                                                      173 audit reports.
ings associated with these open recommenda-
tions; our top three open recommendations; and
the number of recommendations that have been
implemented since January 5, 2009.




                                 Semiannual Report to Congress      41
June 18, 2010                                           August 23, 2010
Letter to Senators Grassley and                         Letter to Chairman Towns on OIG’s Top
Coburn Regarding Information in                         Three Open Audit Recommendations
Support of OIG’s Mission                                Rendering the Greatest Cost Savings
Requested by Senators Grassley and Coburn               to the Federal Budget
                                                        Requested by the Chairman of the House
In response to Senators Grassley and Coburn’s           Committee on Oversight and Government
April 8, 2010, letter, we provided information on       Reform
the independence necessary to carry out our au-
dits, evaluations, and investigations. We reported      We identified the following top three open
(1) that the Department is generally responsive         recommendations: (1) the Department should
to our requests for information; (2) a summary          monitor its field offices’ quarterly inactive project
of our non-public investigations and manage-            reviews, particularly on stagnant projects, to en-
ment advisories; (3) no threats to or attempted         sure that inactive obligations are liquidated in a
obstruction of our ability to communicate with          timely manner throughout the year (totaling $800
Congress on the budget or other matters; and            million); (2) FAA should direct airport sponsors to
(4) the number of open recommendations and              develop and implement plans to recover FAA’s
associated cost savings estimates, our top three        share from the disposition of 3,608 unneeded
open recommendations, and the number of                 noise land acres (estimated at $160.6 million);
recommendations implemented since January               and (3) RITA should coordinate with FHWA to
5, 2009.                                                identify and review old Intelligent Transportation
                                                        Systems program contracts and agreements
                                                        and de-obligate nearly $20 million in unneeded
                                                        funds.




                                       Departmentwide Issues    42
                                                          Other Accomplishments


OIG’s other accomplishments and contributions are those that extend beyond the legal reporting
requirements of the Inspector General Act. These accomplishments are part of our statutory respon-
sibilities to review existing and proposed legislation and regulations; respond to congressional and
departmental requests for information; and review policies for ways to promote effectiveness and
efficiency and detect and prevent fraud, waste, and abuse.

April 16, 2010                                           Health; representatives from the Internal Revenue
                                                         Service, Inspector General Office; and officials
Spoke on Issues of Concern to the
                                                         from the Federal Police Department.
Aviation Industry in Implementing ARRA
                                                         May 19, 2010
A Program Manager from Aviation and Special
Program Audits presented our ARRA FAA work               Spoke on Federal Audit Approaches
to the annual Airports Council International-North       Related to ARRA
America Spring Legal Issues Conference in San
Antonio, Texas. The conference consisted of an           The Inspector General spoke at the 18th Biennial
audience of airport and FAA personnel, and DOT           Forum of Government Auditors in San Antonio,
Attorneys. The Program Manager discussed                 Texas, on the OIG community’s strategy for pro-
ARRA requirements and funding, DOT OIG over-             moting accountability in ARRA funded projects.
sight plan, ARRA challenges, ARRA scan results,
                                                         June 3, 2010
ongoing audit work, and lessons learned.
                                                         Spoke on OIG’s ARRA Oversight
May 4, 2010
                                                         Strategies
Briefed Brazilian Officials on DOT OIG
                                                         The Deputy Inspector General presented a key-
Mission
                                                         note address, “Promoting Transparency and Ac-
The Deputy Inspector General, Principal Assistant        countability in DOT’s Implementation of ARRA” at
IG for Investigations, Deputy Assistant IG for           the Mid-Atlantic Intergovernmental Audit Forum
Aviation and Special Program Audits, Associate           in Ocean City, Maryland. The Deputy Inspec-
Counsel, and a Special Agent briefed top Brazil-         tor General’s presentation highlighted our audit
ian officials on our mission at the 2010 Brazilian       and investigation work on ARRA as it relates to
National Briefing, sponsored by The George               aviation, surface safety, information security, and
Washington University’s Brazilian anti-corruption        acquisitions and procurement; the challenges we
program. Participants included more than 20 Bra-         identified in each of these areas; and OIG outreach
zilian officials, including those from the Ministry of   efforts to combat fraud, waste, and abuse.




                                     Semiannual Report to Congress      43
July 26 through 29, 2010                              and anti-trust fraud; effective audit practices; and
                                                      ensuring safety in infrastructure projects.
Co-Sponsored the Sixth Biennial
National Fraud Awareness Conference                   This year’s conference was our most successful
on Transportation Infrastructure                      to date, with more than 400 participants. In addi-
Programs                                              tion to OIG presenters, the conference included a
                                                      number of high-level external speakers, including
OIG co-sponsored this week-long conference with       The Honorable John D. Porcari, Deputy Secretary
the American Association of State Highway and         of DOT; The Honorable James L. Oberstar, U.S.
Transportation Officials, the District of Columbia    House of Representatives; Helen Lew, the first
Department of Transportation, the Washington          Inspector General for the Washington Metro-
Metropolitan Area Transit Authority, the Mary-        politan Area Transit Authority; and representatives
land Department of Transportation, the Virginia       from the Virginia, District of Columbia, Delaware,
Department of Transportation, and the Delaware        Maryland, and North Carolina Departments of
Department of Transportation to sharpen aware-        Transportation.
ness of fraud schemes; share best investigative,
                                                      September 15, 2010
audit, and oversight practices; and strengthen
work relationships among attendees. Participants      Spoke on Suspension and Debarment
who attended the conference, held in Arlington,
                                                      Programs
Virginia, included attorneys, auditors, engineers,
contract and procurement officers, investigators,     The Inspector General and IGs from the Depart-
and law enforcement personnel from all levels of      ment of Homeland Security and the General Ser-
government.                                           vices Administration discussed suspension and
                                                      debarment policies, procedures, and practices
The conference provided a unique opportunity to       at their respective departments and agencies at
educate stakeholders in Federal, state, and local     the Association of Government Accountants’ Fifth
government as well as the private sector on how       Annual Internal Control and Fraud Conference.
to identify and prevent fraud, waste, and abuse       The panel discussion, “How Effectively Are We
and protect taxpayer investments. The agenda          Using Suspension and Debarment Actions for
covered topics such as ARRA stewardship and           Poorly Performing Contractors?,” was moderated
oversight challenges; fraud schemes, including        by the Tennessee Valley Authority IG.
those related to DBE, as well as contract, grant,




                                      Other Accomplishments    44
                                           Work Planned and in Progress


This section describes OIG’s ongoing and planned work for October 1, 2010, through March 31, 2011.
This work focuses on the Department’s Strategic Plan and its core missions of transportation safety
and mobility, as well as responds to requests by Administration officials and Congress. We take into
account the need to support DOT’s most critical programs and ensure that departmental resources are
protected from fraud, waste, and abuse.




AVIATION AND SPECIAL PROGRAMS
IN PROGRESS

FAA Progress in Developing                              which require Agency certification for FAA-owned
                                                        systems but not for contractor-owned systems.
and Implementing NextGen
                                                        The Chairmen raised questions about how this is
Transformational Programs                               impacting FAA’s continued responsibility to over-
                                                        see the performance of key NextGen technolo-
At the request of the Chairmen and Ranking Mem-
                                                        gies that will be owned by the private sector, such
bers of the House Committee on Transportation
                                                        as Automatic Dependent Surveillance-Broadcast
and Infrastructure and its Subcommittee on Avia-
                                                        (ADS-B). Accordingly, we are examining the new
tion, OIG is assessing FAA’s actions to address
                                                        procedures, as applied to ADS-B, to (1) determine
recommendations made by an RTCA task force
                                                        the impact of the procedures on FAA’s statutory
convened to review mid-term actions in NextGen’s
                                                        responsibility for maintaining the safety and integ-
development. Specifically, OIG is determining the
                                                        rity of air traffic control systems and (2) identify the
extent to which FAA is (1) responding to the task
                                                        challenges and risks associated with the private
force’s recommendations, including adjusting its
                                                        sector operating and maintaining key air traffic
budgets and establishing mechanisms for contin-
                                                        control systems.
ued collaboration with industry and (2) addressing
barriers that may hinder its ability to successfully
implement the recommendations.                          FAA’s System Wide Information
                                                        Management Program (SWIM)
Certification of NextGen Technologies
                                                SWIM is a secure, web-based architecture that is
At the request of the Chairmen of the House expected to streamline information sharing to air-
Committee on Transportation and Infrastructure space users and provide access to weather and
and its Subcommittee on Aviation, OIG is as- flight management information, and aeronautical
sessing FAA’s revised certification procedures, services and applications. OIG is examining (1)


                                    Semiannual Report to Congress      45
the status of FAA’s efforts to develop and imple-        Commercial Aviation Accidents, Pilot
ment SWIM and (2) problems that could affect na-
                                                         Experience, and Pilot Compensations
tionwide deployment or limit anticipated benefits.
                                                   At the request of the Chairmen and Ranking Mem-
Progress and Problems Implementing                 bers of the Senate Committee on Commerce,
                                                   Science, and Transportation and its Subcommit-
the En Route Automation                            tee on Aviation Operations, Safety, and Security,
Modernization (ERAM) Program                       OIG is conducting an audit to identify and assess
                                                   trends in commercial aviation accidents, includ-
At the request of the House Appropriations
                                                   ing correlations between pilot experience and
Subcommittee on Transportation, Housing and
                                                   compensation.
Urban Development, and Related Agencies, OIG
is reviewing FAA’s implementation of ERAM—a
$2.1 billion program to replace existing hardware FAA’s Organization Designation
and software at facilities that manage high alti- Authorization and Risk-Based Resource
tude air traffic in the National Airspace System.
Our objectives are to (1) determine FAA’s progress
                                                   Targeting Processes
in implementing ERAM and address persistent At the request of Representative Lipinski, OIG
software problems and (2) identify the risks these is assessing FAA’s Organization Designation
problems may pose on FAA’s plans to implement Authorization (ODA) program and its Risk-Based
critical NextGen systems.                          Resource Targeting (RBRT) process. The ODA
                                                         program authorizes companies to perform certain
FAA Oversight of Pilot Training and                      functions on FAA’s behalf, including issuing air-
Regional Airlines                                        worthiness certificates, approving certain aircraft
                                                         engineering designs and test data, and modifying
At the request of the Chairmen and Ranking Mem-          existing approved designs. RBRT classifies cer-
bers of the Senate Committee on Commerce,                tification projects in low, medium, and high risk
Science, and Transportation and its Subcommit-           categories so that engineers and managers can
tee on Aviation Operations, Safety, and Security;        focus their oversight on projects deemed to have
the Chairman of the House Transportation and             the highest risk. OIG is determining (1) the role
Infrastructure’s Subcommittee on Aviation; and           FAA plays in the selection process for individu-
Representatives Slaughter, Lee, and Higgins, OIG         als who perform work under the ODA program,
is performing an audit of pilot training and regional    (2) the adequacy of FAA’s safety oversight of the
airlines to assess (1) FAA oversight of air carrier      program, and (3) the effectiveness of FAA’s RBRT
pilot training and proficiency programs and (2) the      assessment process.
processes and data that FAA and air carriers use
to evaluate the competence and qualifications of
pilots when they are hired.



                                     Work Planned and in Progress    46
Department of Transportation and FAA Costs and Controls Associated with
Oversight of Domestic Code-Share     the 2009 FAA/National Air Traffic
Relationships                        Controllers Association Contract
At the request of the Chairmen of the House Com-        At the request of Representative Mica, Ranking
mittee on Transportation and Infrastructure and         Member of the House Committee on Transpor-
its Subcommittee on Aviation, OIG is conducting         tation and Infrastructure, OIG is conducting an
an audit of DOT and FAA oversight of code-              audit of the new collective bargaining agreement
share agreements between domestic air carrier           between FAA and the National Air Traffic Control-
partners. Our audit objectives are to (1) examine       lers Association to (1) evaluate the accuracy and
DOT’s and FAA’s legal authority to review agree-        completeness of FAA’s cost estimate of the new
ments between mainline air carriers and their           contract, (2) identify contract provisions that could
regional partners, (2) assess how mainline air car-     increase costs, and (3) determine if FAA has suf-
riers ensure that their regional partners have the      ficient controls in place to prevent cost increases.
same level of safety, and (3) determine whether
the public has adequate information on carriers to
make informed decisions when purchasing airline
                                                        FAA’s Efforts To Improve Its System for
tickets.                                                Tracking Controller Training
                                                        In July 2009, the House Appropriations Subcom-
FAA Regulations and Airline Policies                    mittee on Transportation, Housing and Urban
Regarding Crew Rest Requirements                        Development, and Related Agencies directed
                                                        OIG to provide an update on FAA’s progress in
and Fatigue Issues                                      developing procedures for collecting accurate
At the request of the Chairmen and Ranking Mem-         data on controller training failures to more effec-
bers of the Senate Committee on Commerce, Sci-          tively monitor and improve the controller training
ence, and Transportation and its Subcommittee on        program. The Subcommittee also requested that
Aviation Operations, Safety, and Security, OIG is       OIG review FAA’s metrics for measuring and re-
conducting an audit to (1) identify FAA regulations     porting the effectiveness of its controller training
and airline policies on crew rest requirements and      program. Accordingly, OIG is (1) evaluating FAA’s
fatigue issues, including the role of pilot domicile    actions taken to improve its system for tracking
and duty locations; (2) determine how FAA and           the training progress of newly hired controllers
airlines enforce these regulations and policies;        and (2) determining if FAA uses appropriate train-
and (3) assess how FAA and airlines update these        ing attrition metrics in reporting controller training
policies and procedures to ensure they address          progress.
changing conditions in the aviation industry.




                                    Semiannual Report to Congress    47
Job Creation under the American                         nisms for continued industry collaboration, and
                                                        (2) addressing barriers that may hinder its ability
Recovery and Reinvestment Act of
                                                        to successfully implement the recommendations.
2009
At the request of Representative Mica, Ranking          FAA Oversight of Use of Airport
Member of the House Committee on Transporta-            Revenue – Denver International Airport
tion and Infrastructure, OIG is reviewing job cre-
ation and reporting associated with ARRA funding        OIG is determining whether FAA’s oversight en-
for two FAA accounts: the Airport Improvement           sures that (1) Denver International Airport is as
Program (AIP) and Facilities and Equipment              self-sustaining as possible and obtains fair mar-
(F&E). OIG is determining whether (1) AIP and           ket value for land sales and (2) the City of Denver,
F&E projects funded under ARRA are preserving           the airport sponsor, uses airport revenues only for
and creating jobs and (2) the reporting of job data     airport purposes in accordance with Federal law.
satisfies ARRA requirements.
                                                        PLANNED
FAA Oversight of Venice, Florida,
Municipal Airport Revenues                              FAA Oversight of Aircraft Repair
                                                        Stations
At the request of Senator LeMieux, OIG is assess-
ing whether FAA’s oversight ensures that the City       At the request of the Chairman of the House
of Venice is using airport revenues for appropriate     Transportation and Infrastructure’s Subcommittee
purposes and that the airport is as self-sustaining     on Aviation, OIG will assess U.S. airlines’ use of
as possible.                                            aircraft repair stations. Specifically, OIG plans to
                                                        (1) identify the changes that FAA has made to its
                                                        repair station oversight in response to OIG recom-
FAA Implementation of RTCA’s                            mendations, (2) assess the effectiveness of these
NextGen Task Force Recommendations                      changes in improving FAA oversight, and (3) iden-
                                                        tify any challenges that need to be addressed.
At the request of the Chairmen and Ranking
Members of the House Committee on Transporta-
tion and Infrastructure and its Subcommittee on         Controller Staffing and Training at
Aviation, OIG is assessing FAA’s implementation         Critical Air Traffic Control Facilities
of recommendations made by RTCA, a Federal
advisory committee. Specifically, we are deter-         In July 2010, the House Appropriations Subcom-
mining the extent to which FAA is (1) responding        mittee on Transportation, Housing and Urban
to the task force’s recommendations, including          Development, and Related Agencies directed
adjusting its budgets and establishing mecha-           OIG to review training and staffing at FAA’s most
                                                        critical facilities to assess whether FAA’s training


                                    Work Planned and in Progress    48
protocol ensures that all air traffic control facilities, PHMSA Management and Oversight
especially the busiest and most complex facilities,
                                                          of Hazardous Materials Emergency
have enough controllers to maintain the safety of
the National Airspace System. Accordingly, OIG Preparedness Grants Program
will review FAA’s plans to provide its most critical
                                                          At the request of the Chairman of the House
air traffic control facilities with controller staffing,
                                                          Committee on Transportation and Infrastructure,
training resources, and other support needed to
                                                          OIG will audit PHMSA’s management and over-
ensure the continuity of facility operations.
                                                          sight of the Hazardous Materials Emergency Pre-
                                                          paredness (HMEP) grant program. Specifically,
FAA Efforts To Improve Alaskan                            OIG will evaluate the effectiveness of PHMSA’s
Aviation Safety                                           (1) policies, processes, and resources to execute
                                                          the program; (2) guidance to states, local govern-
Alaskans depend far more than the rest of the Na- ments, and tribal organizations on HMEP and the
tion on aviation to meet their daily needs. Small use of Federal funds; and (3) program oversight to
aircraft meet much of this demand for aviation ensure Federal funds are used for eligible activi-
services but often lack the technology needed ties in accordance with Federal law, regulations,
to safely navigate Alaska’s challenging terrain in and submitted grant applications.
bad weather. During summer 2010, small aircraft
in Alaska experienced a spike in accidents and
                                                          PHMSA Oversight of Hazardous Liquid
fatalities, including a crash that killed Alaska’s
former U.S. Senator Ted Stevens and four others. Pipeline Management Programs
Because Alaska’s accident rate exceeds the na-
                                                          In July 2010, the House Appropriations Subcom-
tional average, OIG will assess FAA’s technology
                                                          mittee on Transportation, Housing and Urban De-
strategies and investments for improving aviation
                                                          velopment, and Related Agencies called on OIG
safety in the State.
                                                          to assess PHMSA’s implementation of Federal
                                                          pipeline safety regulations regarding human fac-
FAA Oversight of ARRA Expenditures                        tors and other aspects of control room manage-
                                                          ment. OIG will also examine pipeline operators’
ARRA requires OIG to conduct audits of ARRA- integrity management programs.
funded projects to ensure the effective and
efficient use of DOT’s ARRA funds. Accordingly,
OIG plans to determine whether FAA oversight of
ARRA grants is ensuring that airport sponsors are
being reimbursed for only eligible expenditures.




                                     Semiannual Report to Congress    49
HIGHWAY AND TRANSIT PROGRAMS
IN PROGRESS

FTA Oversight of Major Transit Projects                  challenges and risks related to increasing Federal
                                                         oversight of transit safety and actions the Depart-
in New York City
                                                         ment can take to enhance its effectiveness.
OIG is conducting audits of four transit projects in
New York City, totaling approximately $7 billion in      NHTSA Office of Defects Investigation
Federal funding: (1) the Fulton Street Transit Cen-
ter, (2) the Port Authority Trans-Hudson Terminal,   OIG is reviewing actions taken by NHTSA’s Office
(3) the Second Avenue Subway, and (4) the East       of Defects Investigation (ODI) with regard to Toy-
Side Access projects. OIG is evaluating the ef-      ota recalls and the overall process for identifying
fectiveness of FTA’s oversight of each project and   and investigating safety defects. Our audit objec-
assessing whether ARRA goals and requirements        tives are to (1) examine NHTSA’s efforts to ensure
are being met, if applicable.                        ODI has the appropriate information systems
                                                     and processes in place to promptly identify and
                                                     take action to address potential safety defects as
FTA Oversight of the Dulles Corridor                 intended by the Transportation Recall Enhance-
Metrorail Project                                    ment, Accountability, and Documentation Act;
                                                     (2) assess NHTSA’s procedures and processes for
OIG is conducting an audit of FTA’s oversight of
                                                     ensuring companies provide timely notification of
Phase 1 of the Dulles Corridor Metrorail Project in
                                                     potential safety defects; and (3) examine lessons
the Washington, D.C., metropolitan area. This in-
                                                     learned from the Toyota recalls to identify needed
frastructure project involves a Federal investment
                                                     improvements to current policies and procedures.
of $900 million through FTA’s New Starts program,
including $77.3 million in ARRA funds. Our audit
objectives are to (1) evaluate the effectiveness of NHTSA Ethics Policies
FTA’s oversight of the Dulles Corridor Metrorail
                                                     At the request of the Chairmen of the Senate
Project and (2) assess safety concerns.
                                                     Committee on Commerce, Science, and Trans-
                                                     portation and its Subcommittee on Consumer
Oversight Challenges Associated with                 Protection, Product Safety, and Insurance, OIG is
Transit Safety Programs                              reviewing NHTSA’s ethics policies and practices.
                                                     We are assessing whether (1) NHTSA’s ethics
OIG is reviewing challenges associated with policies, procedures, and training are adequate
enhancing federal oversight authority for transit to prevent pre- and post-employment ethics
safety programs. Our audit objective is to highlight violations or appearances of impropriety and (2)



                                     Work Planned and in Progress    50
any favoritism or bias is shown towards industry         Denali Commission’s Use of Federal-
during the normal course of conducting defect
                                                         aid Highway and Transit Funds
investigations.
                                                 At the request of Senator Bond, OIG is assess-
FHWA’s National Review Teams                     ing the Denali Commission’s use of Federal-aid
                                                 highway and transit funds and evaluating DOT’s
OIG is assessing whether FHWA’s National Re- oversight of the Commission and state transpor-
view Teams have been effective in helping FHWA tation agencies.
oversee $26 billion in ARRA funding and mitigate
the key risks posed by ARRA’s implementation.    PLANNED

Oversight of Highway Projects                            OST’s Transportation Investments
Administered by Local Public Agencies                    Generating Economic Recovery
                                                         (TIGER) Grants
OIG is assessing FHWA’s oversight of the $6 bil-
lion to $8 billion provided annually to localities for   OIG plans to assess whether the Department
highway projects along with $8 billion in ARRA           met ARRA discretionary grant requirements and
funding. Our audit will compare the oversight pro-       to evaluate the strategy for discretionary grant
vided to local public agency programs approved           administration and oversight. ARRA created new
through ARRA with that provided to programs              discretionary grant programs, including $1.5
funded by regular Federal aid.                           billion for surface transportation infrastructure
                                                         projects to be administered by the Office of the
                                                         Secretary.
FHWA Oversight of High-Dollar ARRA
Highway Projects
                                                         FTA’s Charter Bus Regulation
OIG is conducting an audit to determine if FHWA’s
oversight of selected higher dollar ARRA projects        In response to a provision in the Conference
has resulted in project compliance with Federal-         Report accompanying the fiscal year 2010 De-
aid highway requirements for cost, schedule, and         partments of Transportation, Housing and Urban
quality. ARRA provided $27.5 billion to FHWA for         Development, and Related Agencies appropria-
highway infrastructure investments and required          tions bill, OIG plans to review the effect of charter
FHWA to ensure that states receiving ARRA funds          tour regulations on quality and price of transit
adhere to Federal-aid highway program require-           services.
ments.




                                     Semiannual Report to Congress    51
RAIL AND MARITIME PROGRAMS AND ECONOMIC ANALYSIS
IN PROGRESS

MARAD’s Title XI Loan Guarantee                         Utilization of Amtrak’s Maintenance
Program                                                 Facilities
At the request of the Senate Appropriations Sub-        In accordance with Section 227 of PRIIA of 2008,
committee on Transportation, Housing and Urban          OIG is auditing Amtrak’s utilization of its existing
Development, and Related Agencies, OIG is as-           equipment maintenance and repair facilities. Our
sessing the Maritime Administration’s (MARAD)           objectives are to examine (1) Amtrak’s use of its
response to recommendations we made in our              three back shop facilities; (2) the productivity of
2003 and 2004 audit reports on the Title XI Loan        these facilities; and (3) the extent to which Amtrak
Guarantee Program and the degree to which               is maximizing the use of each facility, including
information is readily available for monitoring the     the provision of maintenance and repair services
program.                                                to other rail carriers.


Amtrak Semiannual Reports on                            High-Speed Rail Program State-Freight
Operational Savings                                     Railroad Access Agreements
As mandated by Congress, OIG is issuing semi-           OIG is conducting an audit to (1) evaluate whether
annual reports to the House and Senate Commit-          access agreements between states and freight
tees on Appropriations on our estimates of the          railroads comply with PRIIA requirements and
savings accrued as a result of operational reforms      FRA’s June 2009 Interim Guidance and (2) deter-
instituted by Amtrak.                                   mine whether the access agreements adequately
                                                        address cost, schedule, and performance goals
Amtrak’s Five-Year Capital Plan                         and thus ensure high-speed intercity passenger
                                                        rail benefits.
At the request of the House Committee on Ap-
propriations, we are reviewing Amtrak’s capital
planning process. Specifically, we are assessing        Adequacy of Measures Taken To
(1) how Amtrak’s 5-year capital requirements            Address the Solvency of the Highway
align with its business and strategic goals, (2)        Trust Fund
Amtrak’s efforts to prioritize its capital projects
among competing needs, (3) Amtrak’s ability to          At the request of the Ranking Minority Member of
implement its increased capital budget provided         the Senate Budget Committee, OIG is conducting
by ARRA, and (4) Amtrak’s approach to evaluating        an audit to evaluate the reasonableness of the
the performance of capital projects.                    Department’s policies and procedures for moni-


                                    Work Planned and in Progress    52
toring the solvency of the Highway Trust Fund, Financial Analysis of Transportation
and compare these policies and procedures to
                                                     Related Public-Private Partnerships
those used by FAA to manage the Airport and
Airway Trust Fund.                                   OIG is performing an analysis to (1) determine
                                                     the extent to which public-private partnerships
Causes of Amtrak Delays / Intercity                  (PPP) address transportation infrastructure fund-
                                                     ing needs, (2) identify disadvantages to the public
Passenger Rail Service Bottlenecks                   sector of PPP transactions compared to more
                                                     traditional financing methods, and (3) identify fac-
OIG is using an econometric model to identify
                                                     tors that allow both the private and public sector
bottlenecks along Amtrak routes and determine
                                                     to derive value from PPP transactions.
the causes. We plan to determine which of these
bottlenecks are due to congestion or relative lack
of capacity, and identify the locations that warrant PLANNED
more in-depth examination as candidates for rail
infrastructure investments.                          Amtrak’s Financial Accounting and
                                                          Reporting System
Best Practices in High-Speed Rail                         Pursuant to section 203(b) of PRIIA; OIG is plan-
Forecasting                                               ning to conduct a review of Amtrak’s modern
                                                          financial accounting and reporting system.
OIG is performing an analysis to (1) assess the
strengths and weaknesses of various methodolo-
gies used in developing forecasts of high-speed State Capacity to Meet High-Speed
rail and intercity passenger rail ridership and Rail Demands
revenue, cost estimates, and public benefits valu-
ations and (2) identify best practices in preparing OIG plans to (1) evaluate states’ capabilities for
these forecasts, estimates, and valuations.         planning, designing, and managing high-speed
                                                    rail projects; (2) determine what constitutes a
                                                    strong state passenger rail department and how
Rail Service Disruptions                            these strong departments develop; and (3) iden-
As directed by the Conference Report accom- tify states’ capacity for managing other state-led
panying the fiscal year 2008 Consolidated Ap- Federally-funded programs, such as Federal-aid
propriations Act, OIG is examining the timeliness highways, and how these capacities developed.
and reliability of freight rail service and disruptions
since 2004. We are focusing on the quality of and
disruptions to service received by shippers of
coal, wheat, ethanol, and lumber.




                                      Semiannual Report to Congress    53
FRA and Amtrak Implementation of
PRIIA Provisions
Pursuant to section 221 of PRIIA, OIG, in conjunc-
tion with the Amtrak OIG, plans to review Am-
trak’s and DOT’s progress in implementing PRIIA
provisions. As directed by the act, at a minimum
we will assess FRA’s and Amtrak’s (1) effective-
ness in improving annual financial planning; (2)
effectiveness in implementing improved financial
accounting; (3) efforts to implement minimum
train performance standards; and (4) progress in
maximizing revenues, minimizing Federal subsi-
dies, and improving financial results.




                                   Work Planned and in Progress    54
FINANCIAL AND INFORMATION TECHNOLOGY
IN PROGRESS

Information Technology Vulnerability                   DOT Implementation of Personal
Assessment of FAA’s Operational Air                    Identity Verification (PIV) Cards
Traffic Control System                                 OIG is determining if DOT (1) has an effective
At the request of the Ranking Members of the           process for issuing, maintaining, and terminating
House Transportation and Infrastructure Commit-        PIV cards for employees and contractors and (2)
tee and its Subcommittee on Aviation, OIG has          is adequately protecting the personal information
contracted with Clifton Gunderson LLP, an inde-        collected, stored, processed, and transmitted
pendent public accounting firm, to perform an          on PIV systems in accordance with Homeland
information technology vulnerability assessment        Security Presidential Directive 12, “Policy for a
of FAA’s Operational Air Traffic Control System to     Common Identification Standard for Federal Em-
determine whether operational air traffic control      ployees and Contractors.”
systems can be accessed by unauthorized users
from inside air traffic control facilities through     DOT Information Security Program and
FAA’s Mission Support/Administrative System
Network.
                                                       Practices for Fiscal Year 2010
                                                       The Federal Information Security Management
NextGen Automatic Dependent                            Act of 2002 requires OIG to perform an annual
                                                       review of DOT’s information security program and
Surveillance Broadcast (ADS-B)                         practices to determine their effectiveness and
Security and Controls                                  complete OMB’s template for security assess-
                                                       ments and performance measures.
At the request of the Chairmen and Ranking
Members of the House Committee on Transporta-
tion and Infrastructure and its Subcommittee on        DOT Network Access Accounts
Aviation, OIG is determining whether (1) ADS–B         Management
security requirements specified in the contract
have been properly defined and satisfied by the        OIG is determining if the Department is (1) properly
contractor, (2) the contractor is following FAA’s      identifying all users and network devices for ac-
security architecture in developing ADS–B, and         count management; (2) adequately establishing,
(3) the contractor has identified and mitigated        activating, modifying, disabling, and removing ac-
security risks.                                        counts; and (3) sufficiently authenticating account
                                                       users.




                                   Semiannual Report to Congress    55
DOT’s Implementation of Single Audit                    Quality Control Reviews of Single
Recommendations and Cost Recovery                       Audits on DOT Grantees
OIG is determining if DOT Operating Administra-         As mandated by OMB Circular A-133, OIG will
tions have (1) issued management decisions              conduct quality control reviews of selected single
approving grantees’ corrective action plans, (2)        audits performed by independent public account-
ensured the prompt implementation of correc-            ing firms on grant recipients’ use of DOT funds.
tive actions by grantees, (3) taken timely action
to recover questioned costs, and (4) used single
audit results to identify grantees requiring close
                                                        Standards for Attestation Engagements
monitoring.                                             (SSAE-16) Review of FAA Enterprise
                                                        Center Security Controls
FAA Expenditures for Airport                            OIG will conduct a quality control review of the au-
Improvements at the Kabul,                              dit performed by an independent public account-
Afghanistan International Airport                       ing firm and determine if the audit was performed
                                                        in accordance with applicable audit standards.
In response to an FAA request, OIG is perform-
ing a review of FAA expenditures at the Kabul,
Afghanistan International Airport. In 2006, the
                                                        Quality Control Reviews for Fiscal
United States Agency for International Develop-         Years 2010 and 2011 of DOT
ment (USAID), under an agreement with FAA,              Consolidated Financial Statements, FAA
transferred $25 million to FAA for improvements
at the airport. Our audit objective is to determine
                                                        Financial Statements, and National
if FAA’s costs in support of these improvements         Transportation Safety Board Financial
were supported and valid under the terms and            Statements
conditions of the agreement with USAID.
                                                        As mandated by the Chief Financial Officers Act,
PLANNED                                                 OIG will conduct quality control reviews of the
                                                        audits by independent public accounting firms to
FTA Improper Payment Controls                           determine if they were performed in accordance
                                                        with applicable auditing standards.
OIG will review the controls implemented by FTA
headquarters and regional offices to prevent and
detect improper payments to Federal transit grant
recipients.




                                    Work Planned and in Progress    56
Implementation of DOT Enterprise                  DOT Compliance with Reporting
Architecture for Information Technology Requirements Outlined in Executive
Investment                                        Order 13520, Reducing Improper
OIG will review DOT’s development and imple-
                                                  Payments and Eliminating Waste in
mentation of an enterprise architecture to direct Federal Programs
future information technology system develop-
ment efforts.                                          As mandated by Executive Order 13520, OIG
                                                       will review Department compliance with the Ex-
                                                       ecutive Order; assess the level of risk associated
Security Protection of Airmen Registry                 with applicable programs; determine the extent
System                                                 of oversight warranted; and make recommenda-
                                                       tions, where appropriate.
OIG will review FAA’s security protection of air-
men’s personally identifiable information and the
integrity of the data collected.
                                                       DOT’s Information Security Program
                                                       and Practices for Fiscal Year 2011
Use of NHTSA Drug Control Funds                     As mandated by the Federal Information Security
                                                    Management Act of 2002, OIG will conduct an an-
As mandated by the Office of National Drug Con-
                                                    nual review of DOT’s information security program
trol Policy, OIG will conduct an annual attestation
                                                    and practices to (1) determine their effectiveness
review to ensure that the Fiscal Year 2010 Drug
                                                    and (2) complete OMB’s template for security as-
Control Report submitted to the Office of National
                                                    sessments and performance measures.
Drug Control Policy is not materially misstated.




                                   Semiannual Report to Congress    57
Work Planned and in Progress   58
ACQUISITION AND PROCUREMENT
IN PROGRESS

Planning for FAA’s Acquisition                          Specifically, we are assessing OST’s acquisition
                                                        function against best practices (such as OMB
Workforce Requirements
                                                        guidelines on conducting acquisition assess-
OIG is assessing the adequacy of FAA’s plans for        ments under Circular A–123), including its (1)
determining its acquisition workforce needs and         structure, organization, and support of DOT’s
progress in addressing those needs. Specifically,       mission needs; (2) policies and processes for
we are assessing how FAA (1) determined and             planning, awarding, administering and oversee-
identified the required skills and competencies         ing acquisitions; and (3) internal controls, tools,
needed for its current and future acquisition           and data for managing acquisitions.
workforce; (2) addressed gaps in the hiring and
development of its acquisition workforce; and (3)       FAA’s Award of Systems Engineering
identified the programs, policies, and practices
needed to ensure an adequate workforce.                 2020 Contracts
                                                        At the request of the Ranking Members of the
FHWA Oversight of Federal-aid State                     House Committee on Transportation and Infra-
                                                        structure and its Subcommittee on Aviation, OIG
ARRA Contract Award Practices
                                                        is reviewing FAA’s Systems Engineering 2020
OIG is determining whether FHWA’s oversight of          (SE-2020) contracts. This portfolio of contracts
state-level contract award practices is adequate        for support services, which FAA estimates may
to ensure compliance with laws and regula-              have a maximum value of $7 billion, is being used
tions. ARRA designated about $27 billion for the        to implement NextGen, FAA’s plan to transform
Federal-aid Highway Program to achieve several          the National Airspace System to meet growth in
goals, including (1) preservation and creation of       air traffic operations and an aging infrastructure.
jobs, (2) promotion of economic recovery, and           OIG is reviewing whether these contracts are
(3) investment in transportation infrastructure to      being planned, structured, administered, and
provide long-term economic benefits.                    overseen in accordance with acquisition policy
                                                        and meet FAA’s mission needs.

OST’s Acquisition Function
                                                        FAA’s Use of Price Analysis When
OIG is assessing OST’s acquisition function to
                                                        Awarding Noncompetitive Contracts
identify vulnerabilities that could impact OST’s
ability to manage its acquisitions and implement        OIG is assessing the adequacy of FAA’s price
effective acquisition processes departmentwide.         analyses for awarding noncompetitive contracts



                                   Semiannual Report to Congress    59
and its reasons for awarding noncompetitive             has (1) identified its current acquisition work-
contract awards.                                        force and sufficiently estimated workforce needs
                                                        based on expected acquisitions; (2) assessed
PLANNED                                                 capabilities of the current workforce and identi-
                                                        fied the required skills and competencies needed
FTA’s Oversight of ARRA Grantees’                       for its future acquisition workforce; and (3) de-
                                                        veloped policies and procedures to effectively
Contract Award and Administration                       recruit, train, and retain an adequate workforce
Practices                                               to accomplish agency missions.

OIG plans to determine whether FTA’s oversight
of transit administration-level contracting prac-       FHWA Oversight of Award and
tices by ARRA grantees is adequate to ensure            Administration of Contracts to
compliance with laws and regulations and to
promote the delivery of infrastructure invest-
                                                        Disadvantaged Business Enterprises
ments at appropriate prices.                            OIG plans to determine whether FHWA’s over-
                                                        sight of state-level contract administration prac-
FHWA’s Oversight of State DOT ARRA                      tices is adequate to ensure proper award and
                                                        administration of DOT-assisted DBE contracts.
Contract Administration Practices                       Specifically, we will assess the adequacy of
                                                        FHWA’s oversight procedures for systematically
OIG plans to determine if FHWA’s oversight of
                                                        ensuring that only bona fide, small firms owned
state-level ARRA contract administration prac-
                                                        and controlled by socially and economically
tices is adequate to ensure that states promote
                                                        disadvantaged individuals are performing work
the delivery of infrastructure investments at ap-
                                                        under the program.
propriate prices and comply with ARRA bidding
requirements and contract procedures. These
requirements and procedures call for awarding           FAA’s Acquisition Function
fixed-price contracts through competitive proce-
dures to the maximum extent possible.                   OIG will assess FAA’s organizational structure,
                                                        policies, and processes for complying with OMB
                                                        Circular A-123 guidelines on effective acquisition
Planning for the Department’s                           functions. Specifically, we plan to assess whether
Acquisition Workforce Requirements                      FAA has (1) structured and aligned its acquisition
                                                        function to best support FAA’s mission needs; (2)
OIG plans to determine whether DOT and its              implemented clear and transparent policies and
Operating Administrations, other than FAA, have         processes for governing its acquisition planning,
made adequate progress developing a strategic           awards, administration, and oversight; and (3)
plan for the acquisition workforce. Specifically,       developed internal controls for managing its
we plan to determine whether the Department             acquisition data.

                                   Work Planned and in Progress    60
                                            Statistical Performance Data



Summary of Performance
Office of Inspector General
April 1, 2010 - September 30, 2010
(Dollars in Thousands)

Reports Issued                                                               78
Recommendations Issued                                                      234
Congressional Testimonies                                                     4
Total Financial Recommendations                                       $633,259
That Funds Be Better Used                                             $449,200
Questioned Costs (includes Unsupported Costs)                         $184,059
Indictments                                                                  53
Convictions                                                                  41




                                  Semiannual Report to Congress       61
Statistical Performance Data   62
Audits
Completed OIG Reports
 April 1, 2010 - September 30, 2010
(Dollars in Thousands) *


                                Number of       Number of          Questioned   Unsupported     Funds to Be
         Type of Review          Reports     Recommendations         Costs         Costs      Put to Better Use


Internal Audits
Performance Audits                 11                75               $0        $140,600        $449,200
Financial Audits                   0                  0               $0            $0              $0
Attestation Engagements            0                  0               $0            $0              $0
Other OIG Reports                  0                  0               $0            $0              $0
Total Internal Audit Reports       11                75               $0        $140,600        $449,200
Grant Audits
Audits of Grantees under
Single Audit Act                   67               159            $43,459          $0              $0
Total Completed OIG Reports        78               234            $43,459      $140,600        $449,200


*The dollars shown are the amounts reported to management. The actual amounts may change
during final resolution.


Department of Transportation programs and operations are primarily carried out by Department
personnel and recipients of Federal grants. As a result, audits by DOT’s Office of Inspector General
generally fall into three categories: internal audits of departmental programs and operations, audits
of grant recipients, and other OIG reports.




                                  Semiannual Report to Congress    63
OIG Reports with Recommendations that Questioned Costs
 April 1, 2010 - September 30, 2010
(Dollars in Thousands)

                                      Number of            Number of        Questioned   Unsupported
                                       Reports          Recommendations       Costs         Costs


A.   For which no management             8                      13           $3,829          $0
     decision had been made
     by the start of the reporting
     period




B.   Which were issued during            36                     57          $43,459          $0
     the reporting period


     Totals (A+B)                        44                     70          $47,288          $0


C.   For which a management              36                     59          $45,140          $0
     decision was made during
     the reporting period


     (i) dollar value of disallowed      28                     48          $41,307          $0
     costs*


     (ii) dollar value of costs not      9                      11           $3,835          $0
     disallowed*


D.   For which no management             10                     11           $2,147          $0
     decision had been made
     by the end of the reporting
     period


* Includes reports and recommendations where costs were both allowed and disallowed.




                                      Statistical Performance Data    64
OIG Reports Recommending Changes for Safety, Economy or Efficiency
April 1, 2010 - September 30, 2010

                                                                                   Number of
                                                            Number of Reports   Recommendations


A.   For which no management decision had been                      11                36
     made by the start of the reporting period


B.   Which were issued during the reporting period                  51               173


     Totals: (A+B)                                                  62               209


C. For which a management decision was made                         50               157
   during the reporting period *


D. For which no management decision had been                        20                56
   made by the end of the reporting period *


* Includes reports where management both made and did not make a decision on recommendations.




                                    Semiannual Report to Congress    65
Management Decisions Regarding OIG Recommendations
 April 1, 2010 - September 30, 2010
(Dollars in Thousands)

                                Number of       Number of            Questioned   Unsupported     Funds to Be
                                 Reports     Recommendations           Costs         Costs      Put to Better Use
Unresolved as of 4/01/2010         19                 49              $3,829          $0              $0


Audits with Findings During        73                234             $184,059     $140,600        $449,200
Current Period


Total to be Resolved               92                283             $187,888     $140,600        $449,200
Management Decisions:
Audits Prior Period ‡              14                 32              $3,819          $0              $0
Audits Current Period ‡            62                188             $41,321          $0          $449,200


Total Resolved                     76                220             $45,140          $0          $449,200
Aging of Unresolved Audits: *
Less than 6 months old             20                 46             $142,738     $140,600            $0
6 months – 1 year                  2                  7                   $0          $0              $0
1 year – 18 months                 3                  4                   $10         $0              $0
18 months – 2 years                1                  2                   $0          $0              $0
Over 2 years old                   3                  8                   $0          $0              $0


Unresolved as of 03/31/2010        29                 67             $142,747     $140,600            $0


‡ Includes reports and recommendations where costs were both allowed and disallowed.
* Considered unresolved if management decisions have not been made on all report recommendations.




                                    Statistical Performance Data    66
OIG Published Reports
April 1, 2010 - September 30, 2010

DEPARTMENTWIDE

Internal Audits: Performance/Attestation – 1 report


    Report        Date                       Title                          Focus of Report/ Recommendations

ZA-2010-092   8/25/2010    Improvements in Cost-Plus Award-Fee Performance evaluation plans did not include
                           Processes Are Needed To Ensure            measurable criteria to evaluate contractor
                           Millions Paid in Fees Are Justified       performance, and descriptions defining ratings
                                                                     were vague. In addition, payment structures al-
                                                                     low for average or below-average performance.
                                                                     Contracting officers did not adequately justify
                                                                     the cost effectiveness of selecting cost-plus
                                                                     award-fee contracts. Funds put to better use
                                                                     total $4,600,000; unsupported costs total
                                                                     $140,600,000.

FEDERAL AVIATION ADMINISTRATION

Internal Audits: Performance/Attestation – 5 reports

    Report        Date                       Title                          Focus of Report/ Recommendations

AV-2010-049   04/01/2010   Review of Screening, Placement, and       FAA needs to evaluate and redesign its current
                           Initial Training of Newly Hired Air Traffic screening test to consider candidates’ skill
                           Controllers                               sets, assign candidates to a facility based on
                                                                     their Academy performance and improve its
                                                                     Academy training program.


AV-2010-068   06/16/2010   Timely Actions Needed To Advance          FAA has made some progress in engaging the
                           the Next Generation Air Transportation private sector to develop NextGen and shape
                           System                                    related policies; however, it must better define
                                                                     the role of the NextGen Institute and ensure
                                                                     demonstration projects are more outcome
                                                                     focused.




                                     Semiannual Report to Congress     67
    Report         Date                        Title                          Focus of Report/ Recommendations

FI-2010-069   06/18/2010    Information Security and Privacy           Personally identifiable information of airmen
                            Controls Over the Airmen Medical           was not properly secured to prevent unauthor-
                            Support Systems                            ized access due to serious security lapses
                                                                       in FAA’s management of user access to the
                                                                       system. Only limited progress has been made
                                                                       in identifying airmen who receive disability
                                                                       benefits while holding medical certificates.


AV-2010-071   07/21/2010    Review of FAA’s Call to Action Plan for While FAA’s plan has helped reduce some
                            Runway Safety                              serious incidents, other factors may have
                                                                       contributed to the decrease, such as fewer
                                                                       runway incursions, key safety improvements
                                                                       at major airports made prior to the plan, and
                                                                       inconsistencies in FAA’s runway incursion
                                                                       severity rating process.


AV-2010-126   09/30/2010    FAA’s Air Traffic Controller Optimum       FAA faces significant challenges in achieving
                            Training Solution Program: Sound           the goals of the Air Traffic Control Optimum
                            Contract Management Practices              Training Solution program due to failure to
                            Are Needed To Achieve Program              mitigate staffing and cost issues, determine
                            Outcomes                                   controller staffing needs, and ensure contractor
                                                                       services controls. Although funds are only suf-
                                                                       ficient to support existing training, innovations
                                                                       to reduce training time and cost have not been
                                                                       implemented. Funds put to better use total
                                                                       $444,600,000.


Grant Audits: Audits of Grantee Under Single Audit Act – 12 reports
                                                                                                   Focus of Report/
   Report        Date                                   Title
                                                                                                  Recommendations
SA-2010-056   05/07/2010   Collier County, Florida                                         $183,452 questioned
SA-2010-059   05/07/2010   State of Wisconsin (also listed under the Federal Highway       Improve grantee oversight
                           Administration)
SA-2010-061   05/07/2010   Antonio B. Won Pat International Airport Authority, Guam        Improve grantee oversight




                                        Statistical Performance Data    68
SA-2010-063   05/07/2010   State of Texas (also listed under the Federal Highway          $788,771 questioned
                           Administration, the Federal Transit Administration, and the
                           National Traffic Safety Administration)
SA-2010-079   07/22/2010   City of Cle Elum, Washington                                   $21,435 questioned
SA-2010-081   07/22/2010   City of St. Louis, Missouri                                    $1,449,492 questioned
SA-2010-086   07/27/2010   County of Sacramento, California                               Improve grantee oversight
SA-2010-088   07/27/2010   City of San Diego (also listed under the Federal Highway       $281,149 questioned
                           Administration)
SA-2010-115   09/21/2010   Federated States of Micronesia Government                      $252,411 questioned
SA-2010-122   09/27/2010   Augusta, Georgia (also listed under the Federal Transit        $30,702 questioned
                           Administration)
SA-2010-124   09/27/2010   City and County Denver, Colorado - ARRA (also listed under Improve grantee oversight
                           the Federal Highway Administration)
SA-2010-125   09/29/2010   State of Illinois - ARRA (also listed under the Federal        Improve grantee oversight
                           Highway Administration)

FEDERAL HIGHWAY ADMINISTRATION

Internal Audits: Performance/Attestation –1 report

   Report          Date                         Title                                  Focus of Report/
                                                                                      Recommendations
MH-2010-050 04/20/2010       The Commonwealth of Massachusetts’ The Commonwealth’s safety review was
                             Safety Review of the Central Artery/      comprehensive and rigorous. Actions to
                             Tunnel Project Was Comprehensive,         address safety risks identified in the review
                             but FHWA’s Oversight Approach Has         have been taken; however, FHWA’s approach
                             Shortcomings                              has shortcomings.


Grant Audits: Audits of Grantee Under Single Audit Act – 31 reports

    Report        Date                                   Title                                  Focus of Report/
                                                                                               Recommendations
SA-2010-052   04/22/2010 Wilmington Area Planning Council, Delaware (also listed         $15,523 questioned
                           under the Federal Transit Administration)
SA-2010-053   04/22/2010 City of Tracy, California (also listed under the Federal        $52,723 questioned
                           Transit Administration)
SA-2010-055   05/07/2010 State of Nebraska                                               Improve grantee oversight



                                       Semiannual Report to Congress    69
    Report        Date                                 Title                                    Focus of Report/
                                                                                               Recommendations
SA-2010-057   05/07/2010 State of Minnesota (also listed under the Federal Transit       $30,353,000 questioned
                           Administration)
SA-2010-058   05/07/2010 State of Nevada                                                 Improve grantee oversight
SA-2010-059   05/07/2010 State of Wisconsin (also listed under the Federal Aviation      Improve grantee oversight
                           Administration)
SA-2010-060   05/07/2010 State of Maryland (also listed under the Federal Transit        Improve grantee oversight
                           Administration)
SA-2010-062   05/07/2010 Commonwealth of Kentucky                                        Improve grantee oversight

SA-2010-063   05/07/2010 State of Texas (also listed under the Federal Aviation          $788,771 questioned
                           Administration, the Federal Transit Administration, and the
                           National Highway Traffic Safety Administration)
SA-2010-065   05/10/2010 State of Hawaii, Department of Transportation, Highway          Improve grantee oversight
                           Division
QC-2010-070   07/19/2010 State of Nevada                                                 Improve grantee oversight

SA-2010-073   07/22/2010 State of Louisiana                                              Improve grantee oversight

SA-2010-074   07/22/2010 State of North Carolina                                         Improve grantee oversight

SA-2010-077   07/22/2010 State of Utah                                                   Improve grantee oversight

SA-2010-080   07/22/2010 Puerto Rico Highways and Transportation Authority               Improve grantee oversight

SA-2010-082   07/22/2010 State of West Virginia                                          Improve grantee oversight

SA-2010-083   07/22/2010 State of Connecticut                                            $483,642 questioned

SA-2010-084   07/22/2010 State of Washington (also listed under the Federal Transit $740,889 questioned
                           Administration)
SA-2010-088   07/27/2010 City of San Diego, California (also listed under the Federal $281,149 questioned
                           Aviation Administration)
SA-2010-089   07/27/2010 State of New Jersey                                             Improve grantee oversight

SA-2010-090   07/29/2010 State of Georgia (also listed under the Federal Transit         $394,529 questioned
                           Administration)
SA-2010-091   08/05/2010 State of Iowa                                                   Improve grantee oversight




                                        Statistical Performance Data    70
    Report        Date                                 Title                              Focus of Report/
                                                                                         Recommendations
SA-2010-098   08/26/2010 State of Ohio                                             Improve grantee oversight

SA-2010-099   08/26/2010 City of Wichita, Kansas (also listed under the Federal    $397,842 questioned
                           Transit Administration)
SA-2010-101   08/26/2010 State of Rhode Island and Providence Plantations          $25,391 questioned

SA-2010-103   08/30/2010 State of South Dakota                                     $150,146 questioned

SA-2010-104   08/30/2010 Oglala Sioux Tribe, South Dakota                          $374,581 questioned

SA-2010-107   08/30/2010 American Road and Transportation Builders Association,    $90,760 questioned
                           Washington, DC
SA-2010-120   09/27/2010 Snoqualmie Indian Tribe, Washington                       $52,042 questioned

SA-2010-124   09/27/2010 City and County of Denver, Colorado - ARRA (also listed   Improve grantee oversight
                           under the Federal Aviation Administration)
SA-2010-125   09/29/2010 State of Illinois - ARRA (also listed under the Federal   Improve grantee oversight
                           Aviation Administration)




                                      Semiannual Report to Congress      71
FEDERAL MOTOR CARRIER SAFETY ADMINISTRATION

Internal Audits: Performance/Attestation –1 report

   Report         Date                       Title                                   Focus of Report/
                                                                                    Recommendations
ZA-2010-093   08/24/2010   The Federal Motor Carrier Safety          FMCSA lacked adequate contract pre-award
                           Administration Lacks Core Elements        processes in place, leaving it vulnerable to
                           for a Successful Acquisition Function     using ineffective business arrangements and
                                                                     ultimately hindering its ability to maximize
                                                                     competition. Also, FMCSA lacked effective
                                                                     administration and oversight of its contracts
                                                                     to ensure the Agency’s needs were met in the
                                                                     most efficient and economical manner.


Grant Audits: Audits of Grantee Under Single Audit Act – 2 reports

   Report         Date                       Title                                   Focus of Report/
                                                                                    Recommendations
SA-2010-106   08/30/2010   American Association of Motor Vehicle $19,408 questioned
                           Administrators and Affiliates, Virginia
                           (also listed under the National Highway
                           Traffic Safety Administration)
SA-2010-114   09/21/2010   Commonwealth of Pennsylvania              $15,519 questioned

FEDERAL RAILROAD ADMINISTRATION

Internal Audits: Performance/Attestation –1 report

   Report         Date                       Title                                   Focus of Report/
                                                                                    Recommendations
CR-2010-117   09/23/2010   Amtrak Cascades and Coast Starlight       While the Coast Starlight and Amtrak Cascades
                           Routes: Implementation of New Metrics lines experienced significant delays from
                           and Standards Is Key to Improving         2004 through 2009, total minutes of delay on
                           On-Time Performance                       both lines dropped after 2006. Several factors
                                                                     contributed to the decrease in delays—and
                                                                     ultimately the lines’ improved on-time perfor-
                                                                     mance, including improved operations by the
                                                                     host railroads, and Amtrak and reduced freight
                                                                     traffic caused by the depressed economy.


                                      Statistical Performance Data    72
FEDERAL TRANSIT ADMINISTRATION

Internal Audits: Performance/Attestation –1 report

   Report          Date                         Title                                   Focus of Report/
                                                                                       Recommendations
MH-2010-066 05/17/2010        Actions Needed To Mitigate Risks          FTA’s oversight activities provided reasonable
                              Associated with the Access to the         assurance that significant project risks have
                              Region’s Core Project                     been identified and has taken proactive steps
                                                                        to increase its oversight of the Access to the
                                                                        Region’s Core project. However, New Jersey
                                                                        Transit needs to address certain funding
                                                                        resource challenges, including the uncertainty
                                                                        over the long-term availability of local funding.


Grant Audits: Audits of Grantee Under Single Audit Act – 30 reports

                                                                                                  Focus of Report/
   Report         Date                                  Title
                                                                                                 Recommendations
SA-2010-051   04/22/2010 Alameda-Contra Costa Transit District, California                 Improve grantee oversight
SA-2010-052   04/22/2010 Wilmington Area Planning Council, Delaware (also listed           $15,523 questioned
                           under the Federal Highway Administration)
SA-2010-053   04/22/2010 City of Tracy, California (also listed under the Federal          $52,723 questioned
                           Highway Administration)
SA-2010-057   05/07/2010 State of Minnesota (also listed under the Federal Highway         $30,353,000 questioned
                           Administration)
SA-2010-060   05/07/2010 State of Maryland (also listed under the Federal Highway          Improve grantee oversight
                           Administration)
SA-2010-063   05/07/2010 State of Texas (also listed under the Federal Aviation            $788,771 questioned
                           Administration, the Federal Highway Administration, and the
                           National Highway Traffic Safety Administration)
QC-2010-067   05/19/2010 Washington Metropolitan Area Transit Authority, Washington, Improve grantee oversight
                           D.C.
QC-2010-072   07/21/2010 Port Authority of Allegheny County, Pennsylvania                  Improve grantee oversight
SA-2010-074   07/22/2010 State of North Carolina                                           $206,564 questioned
SA-2010-075   07/22/2010 Los Angeles County Metropolitan Transportation Authority,         $351,793 questioned
                           California




                                        Semiannual Report to Congress    73
                                                                                          Focus of Report/
   Report         Date                                  Title
                                                                                         Recommendations
SA-2010-076   07/22/2010 Wyoming Department of Transportation                       $31,923 questioned
SA-2010-078   07/22/2010 City of Roanoke, Virginia                                  $543,307 questioned
SA-2010-084   07/22/2010 State of Washington (also listed under the Federal Highway $740,889 questioned
                           Administration)
SA-2010-085   07/22/2010 San Joaquin Regional Rail Commission, California           $1,635,151 questioned
SA-2010-087   07/27/2010 Miami-Dade County Transit Department, Florida              $528,217 questioned
SA-2010-090   07/29/2010 State of Georgia (also listed under the Federal Highway    $394,529 questioned
                           Administration)
SA-2010-094   08/26/2010 Metropolitan Transit Authority of Harris County, Texas     Improve grantee oversight

SA-2010-095   08/26/2010 Chicago Transit Authority, Illinois                        Improve grantee oversight

SA-2010-096   08/26/2010 City of Brownsville, Texas                                 Improve grantee oversight

SA-2010-097   08/26/2010 Lakeland Area Mass Transit District, Florida               Improve grantee oversight

SA-2010-099   08/26/2010 City of Wichita, Kansas (also listed under the Federal     $397,842 questioned
                           Highway Administration)
SA-2010-100   08/26/2010 City of Fort Collins, Colorado                             $684,281 questioned

SA-2010-102   08/30/2010 Kansas City Area Transportation Authority, Missouri        $61,754 questioned

SA-2010-105   08/30/2010 Puerto Rico Metropolitan Bus                               $2,460,001 questioned

SA-2010-108   09/01/2010 City of Wilkes-Barre, Pennsylvania                         $448,000 questioned

SA-2010-111   09/21/2010 Metropolitan Transportation Authority, New York            $14,756 questioned

SA-2010-118   09/27/2010 South Tahoe Transit Authority, California                  $293,500 questioned

SA-2010-119   09/27/2010 Lorain County, Ohio                                        Improve grantee oversight

SA-2010-122   09/27/2010 Augusta, Georgia (also listed under the Federal Aviation   $30,702 questioned
                           Administration)
SA-2010-123   09/27/2010 Yuma Metropolitan Planning Organization, Arizona           $11,948 questioned




                                        Statistical Performance Data    74
NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION

Internal Audits: Performance/Attestation –1 report

   Report         Date                       Title                                  Focus of Report/
                                                                                   Recommendations
MH-2010-054 04/29/2010     Consumer Assistance to Recycle and        Immediate consumer response and the infusion
                           Save Program: Most Transactions Met of additional program dollars presented signifi-
                           Program Requirements, but Program         cant challenges to NHTSA’s implementation of
                           Completion Activities Continue            the Consumer Assistance to Recycle and Save
                                                                     program. NHTSA has begun to take action to
                                                                     evaluate program compliance and determine
                                                                     total program costs.


Grant Audits: Audits of Grantee Under Single Audit Act – 2 reports

   Report         Date                       Title                                  Focus of Report/
                                                                                   Recommendations
SA-2010-063   05/07/2010   State of Texas (also listed under the     $788,771 questioned
                           Federal Aviation Administration, the
                           Federal Highway Administration, and
                           the Federal Transit Administration)
SA-2010-106   08/30/2010   American Association of Motor Vehicle $19,408 questioned
                           Administrators and Affiliates, Virginia
                           (also listed under the Federal Motor
                           Carrier Safety Administration)

PIPELINE AND HAZARDOUS MATERIALS SAFETY ADMINISTRATION

Grant Audits: Audits of Grantee Under Single Audit Act – 1 report

   Report         Date                       Title                                  Focus of Report/
                                                                                   Recommendations
SA-2010-064   05/10/2010   State of New Mexico Public Regulation $14,000 questioned
                           Commission




                                    Semiannual Report to Congress     75
OIG Congressional Testimonies
April 1, 2010 - September 30, 2010

 Control No.      Date                         Subject                                       Before
CC-2010-066    07/21/2010 FHWA Has Taken Actions but Could Do More          Committee on Transportation and
                           to Strengthen Oversight of Bridge Safety and     Infrastructure
                           States’ Use of Federal Bridge Funding            Subcommittee on Highways and
                                                                            Transit
                                                                            U.S. House of Representatives


CC-2010-050    04/29/2010 Federal Railroad Administration Faces Chal-       Committee on Appropriations
                           lenges in Carrying Out Expanded Role             Subcommittee on Transportation,
                                                                            Housing and Urban Development, and
                                                                            Related Agencies
                                                                            U.S. Senate


CC-2010-044    04/22/2010 Actions Taken and Needed To Improve Man-          Committee on Transportation and
                           agement and Oversight of PHMSA’s Hazardous Infrastructure
                           Materials Special Permits and Approvals          U.S. House of Representatives
                           Program


CC-2010-048    04/21/2010 Challenges in Meeting FAA’s Long-Term Goals       Committee on Transportation
                           for the Next Generation Air Transportation       Infrastructure
                           System                                           Subcommittee on Aviation
                                                                            U.S. House of Representatives




                                      Statistical Performance Data    76
Unresolved Recommendations Over 6 Months Old
Cited in Semiannual Report for October 1, 2005 – March 31, 2006

                         Title                                  Report Number    Final Issue Date
Air Carriers’ Use of Non-Certificated Repair Facilities          AV-2006-031       12/15/2005




Cited in Semiannual Report for April 1, 2007 – September 30, 2007

                         Title                                  Report Number    Final Issue Date
Amtrak’s Board of Directors Provides Leadership to               CR-2007-074       9/14/2007
the Corporation but Can Improve How It Carries Out
Its Oversight Responsibilities




Cited in Semiannual Report for April 1, 2008 – September 30, 2008

                         Title                                  Report Number    Final Issue Date
FAA’s Safety Oversight of Airlines and Use of Regu-              AV-2008-057       6/30/2008
latory Partnership Programs




Cited in Semiannual Report for October 1, 2008 - March 31, 2009

                         Title                                  Report Number    Final Issue Date
FAA’s Process for Reporting and                                  AV-2009-045       3/24/2009
Investigating Operational Errors




                                          Semiannual Report to Congress    77
Cited in Semiannual Report for April 1, 2009 - September 30, 2009

                         Title                                    Report Number   Final Issue Date
Air Traffic Control: Potential Fatigue Factors                     AV-2009-065      6/29/2009
City of Fort Worth, Texas                                          QC-2009-058      5/19/2009
FAA Is Not Realizing the Full Benefits of the Aviation             AV-2009-057      5/14/2009
Safety Action Program



Cited in Semiannual Report for October 1, 2009 - March 31, 2010

                         Title                                    Report Number   Final Issue Date
FAA’s Oversight of American Airlines’ Maintenance                  AV-2010-042       02/16/10
Programs
State of Illinois                                                  SA-2010-021       11/16/09




                                            Statistical Performance Data    78
Investigations
Statistical Outcomes
April 1, 2010 - September 30, 2010

                                Financial Impact
Fines (and Special Assessments)                                       $38,260,225
Restitution                                                            $6,405,892
Recoveries                                                             $7,261,327
Cost Avoided                                                           $3,200,000
Total                                                                 $55,127,444


Referrals
Referred for Prosecution                                                      44
Accepted for Prosecution                                                      28
Declined for Prosecution                                                      35
Civil Prosecution Referral                                                     8
Civil Prosecution Acceptance                                                   5
Civil Prosecution Declination                                                 10


Judicial and Administrative Actions
Indictments                                                                   53
Convictions                                                                   41
Years Incarceration                                                           82
Years Supervised Release                                                      79
Years Probation                                                               72
Hours Community Service                                                     5,290
Debarment                                                                      4
Decertification MBE/DBE                                                        2
Disallowance of DBE Credit                                                     4
Reduction in Federal Funding                                                   3
Certification/License/Permit application denied                                1



                                     Semiannual Report to Congress    79
Investigative Workload
Current Investigations Inventory                                          419
Investigations Opened                                                      86
Investigations Closed                                                      95


OIG Hotline Contacts
Email                                                                    1,882
Fax                                                                        50
Letters                                                                    30
Web                                                                       158
Telephone                                                                 399
Total                                                                    2,519




                                   Statistical Performance Data    80
Profile of All Pending Investigations as of September 30, 2010

                                                      Types of Cases

                        Number of            Procurement Employee       Grant            Motor             Transportation
                      Investigations            Fraud     Integrity     Fraud   Hazmat   Carrier   Other       Safety
Departmentwide              1           0         1            0         0        0        0        0            0
FAA                        148         95         3           17         21       6        0        5            1
FHWA                       119          0         0            2        112       1        0        4            0
FMCSA                      55           0         0            2         0        7        46       0            0
FRA                         4           0         0            1         0        2        0        1            0
FTA                        33           0         1            0         31       0        0        0            1
MARAD                       6           0         2            1         1        1        0        1            0
NHTSA                      14           0         0            1         5                 0        1            7
OIG                         1           0         0            1         0        0        0        0            0
OST                         6           0         3            2         0        0        0        1            0
Other                       1           0         1            0         0        0        0        0            0
PHMSA                      27           0         0            1         0        26       0        0            0
RITA                        3           0         2            1         0        0        0        0            0
SLSDC                       1           0         0            1         0        0        0        0            0
Total                      419         95        13           29        170       43       46       13           9
Percent of total                       23%       3%           7%        41%      10%      11%       3%          2%


Within the Office of Investigations, the Special Investigations staff investigates disclosures of possible (1)
violations of a law, rule, or regulation; (2) gross mismanagement; (3) gross waste of funds; (4) abuse of
authority; and/or (5) a substantial and specific danger to public health or safety that the Office of Special
Counsel (OSC) refers to the Transportation Secretary. The results of these investigations are used by DOT’s
General Counsel as the basis for the Secretary’s response to OSC referrals. The Secretary’s response must
include a list of any apparent violations Special Investigations found and a description of any action to be
taken as a result of the investigation. Our current inventory consists of 10 investigations of OSC whistleblower
complaints in the area of aviation safety.




                                        Semiannual Report to Congress     81
Statistical Performance Data   82
                                                                   Peer Review Activity


OIG was not the subject of a Council of the            For the reports of the peer reviews conducted
Inspectors General on Integrity and Efficiency         on our office, go to http://www.oig.dot.gov/peer-
(CIGIE) peer review during this reporting period.      review.
The last peer reviews conducted on our Office
of Audits and Office of Investigations were per-       Our Office of Audits and Office of Investigations
formed in fiscal year 2010 by the Department of        also did not conduct a CIGIE peer review during
Veterans Affairs (VA) OIG and the General Ser-         this reporting period. The last peer review that
vices Administration (GSA) OIG, respectively. VA       our Office of Audits conducted was in fiscal year
OIG determined the system of quality control for       2010 on the Department of Labor OIG. We pro-
our audit function has been suitably designed and      vided a “pass” rating, and no recommendations
complied with to provide reasonable assurance          were made. Our report was released February
of performing and reporting in conformity with         23, 2010. The last peer review that our Office of
applicable professional standards in all material      Investigations conducted was in fiscal year 2009
respects. Accordingly, VA OIG provided a “pass”        on the Small Business Administration (SBA) OIG.
rating, and no recommendations were made. The          We found that the SBA OIG was in compliance
report was released on March 3, 2010. GSA OIG          with quality standards established by the CIGIE
concluded that our Office of Investigations was in     and Attorney General Guidelines, and no recom-
compliance with quality standards established by       mendations were made. Our report was released
the CIGIE and Attorney General Guidelines, and         May 7, 2009.
no recommendations were made. The report was
released on January 4, 2010.




                                   Semiannual Report to Congress      83
Peer Review Activity    84
                                                      Mission and Organization


The Office of Inspector General for the Department of Transportation was created by Congress through
the Inspector General Act of 1978 (Public Law 95-452). The Act sets several goals for OIG:

 •   To conduct or supervise objective audits and investigations of the Department’s programs and
     operations;
 •   To promote economy, effectiveness, and efficiency within the Department;
 •   To prevent and detect fraud, waste, and abuse in the Department’s programs;
 •   To review existing and proposed laws or regulations affecting the Department and make recom-
     mendations about them;
 •   To keep the Secretary of Transportation and Congress fully informed about problems in depart-
     mental programs and operations.

The Inspector General is committed to fulfilling its statutory responsibilities and assisting members
of Congress, the Secretary, senior Department officials, and the general public in achieving a safe,
efficient, and effective transportation system.


OIG’s audits and investigations offices and three support offices work together to fulfill its mission:


The Office of the Principal Assistant Inspector General for Auditing and Evaluation supervises
and conducts all audit activities related to DOT programs and operations through its five suboffices,
which are divided according to specific DOT program areas: Aviation and Special Programs; Highway
and Transit; Rail, Maritime, and Economic Analysis; Financial and Information Technology; and Acqui-
sition and Procurement. Audit staff are located in headquarters and field offices across the country.

The Office of the Principal Assistant Inspector General for Investigations supervises and conducts
OIG investigative activities related to DOT programs and operations through its headquarters and
seven major regional offices. The headquarters office conducts nationwide special investigations and
analysis as well as manages the OIG Hotline Complaint Center and activities generated by complaints.

The Office of the Assistant Inspector General for Legal, Legislative, and External Affairs provides
a full-range of professional legal services and advice, facilitates communications with Congress, and
manages public and external affairs.




                                    Semiannual Report to Congress      85
The Office of the Assistant Inspector General for Administration is divided into four suboffices: the
Office of Procurement and Administrative Services, the Office of Budget and Financial Management,
the Office of Human Resources, and the Office of Information Technology Management.

The Office of Quality Assurance Reviews and Internal Affairs, under the direction of the Deputy
Inspector General, ensures that internal operations and functions are performed objectively and in an
efficient and effective manner.




                                     Mission and Organization    86
                                                        Inspector General




                                                             Deputy
                                                        Inspector General




                       Quality Assurance
                      Reviews and Internal                                                  Chief of Staff
                             Affairs




                                             Principal Assistant            Assistant
Principal Assistant                                                                                      Assistant
                                             Inspector General          Inspector General
Inspector General                                                                                   Inspector General
                                              for Auditing and        for Legal, Legislative,
for Investigations                                                                                  for Administration
                                                 Evaluation            and External Affairs




                                                                        Assistant              Assistant
                           Assistant              Assistant                                                          Assistant
 Deputy Assistant                                                  Inspector General      Inspector General
                      Inspector General      Inspector General                                                  Inspector General
Inspector General                                                  for Rail, Maritime,     for Financial and
                       for Aviation and       for Highway and                                                    For Procurement
for Investigations                                                   and Economic             Information
                      Special Programs             Transit                                                        and Acquisition
                                                                        Analysis              Technology




                       Deputy Assistant       Deputy Assistant
                      Inspector General      Inspector General
                       for Aviation and       for Highway and
                      Special Programs             Transit




                                             Semiannual Report to Congress    87
                                                                Contacts


Inspector General
Calvin L. Scovel III ……………………………………………………………… (202) 366-1959
Deputy Inspector General
Ann Calvaresi-Barr ……………………………………………………………… (202) 366-6767
Principal Assistant Inspector General for Investigations
Timothy Barry …………………………………………………………………… (202) 366-1967
Principal Assistant Inspector General for Auditing and Evaluation
Lou Dixon………………………………………………………………………… (202) 366-1427
Assistant Inspector General for Legal, Legislative, and External Affairs
Brian A. Dettelbach …………………………………………………………… (202) 366-8751
Assistant Inspector General for Administration
Susan Dailey …………………………………………………………………… (202) 366-1748
Chief of Staff
Madeline Chulumovich ………………………………………………………… (202) 366-6767
Deputy Assistant Inspector General for Investigations
Robert Westbrooks …………………………………………………………… (202) 366-1972
Assistant Inspector General for Aviation and Special Programs Audits
Jeffrey Guzzetti ………………………………………………………………… (202) 366-0500
Deputy Assistant Inspector General for Aviation and Special Programs Audits
Matt Hampton …………………………………………………………………… (202) 366-1987
Assistant Inspector General for Highway and Transit Audits
Joe Come ……………………………………………………………………… (202) 366-5630
Deputy Assistant Inspector General for Highway and Transit Audits
Tom Yatsco (Acting) …………………………………………………………… (202) 366-5630
Assistant Inspector General for Rail, Maritime, and Economic Analysis
Mitchell Behm …………………………………………………………………… (202) 366-9970
Assistant Inspector General for Financial and Information Technology Audits
Rebecca C. Leng ……………………………………………………………… (202) 366-1407
Assistant Inspector General for Procurement and Acquisition Audits
Vacant …………………………………………………………………………… (202) 366-5225




                              Contacts      88
   U.S. Department of Transportation
        Office of Inspector General
      1200 New Jersey Avenue, S.E.
         Washington, D.C. 20590


Hotline to report fraud, waste, and abuse:
          Phone: 800-424-9071
        Email: hotline@oig.dot.gov
   OIG Website: http://www.oig.dot.gov
